No.

In the Supreme Court of the United States
HANNAH P., PETITIONER
v.
JOSEPH MAGUIRE, ACTING DIRECTOR OF THE OFFICE OF
THE DIRECTOR OF NATIONAL INTELLIGENCE

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

TIMOTHY BOSSON
BOSSON LEGAL GROUP, PC

823 South King Street
Leesburg, VA 20175

DANIEL R. ORTIZ
UNIVERSITY OF VIRGINIA
SCHOOL OF LAW SUPREME
COURT LITIGATION CLINIC

580 Massie Road
Charlottesville, VA 22903

MARK T. STANCIL

Counsel of Record

MATTHEW M. MADDEN
DONALD BURKE
ROBBINS, RUSSELL, ENGLERT,
ORSECK, UNTEREINER &
SAUBER LLP

2000 K Street, NW
Washington, DC 20006
(202) 775-4500
mstancil@robbinsrussell.com

QUESTION PRESENTED

The Rehabilitation Act of 1973 and the
Americans with Disabilities Act generally prohibit
employment
discrimination
against
qualified
individuals on the basis of disability. 29 U.S.C.
§ 794(a) and (d); 42 U.S.C. § 12112(a). In applying
these federal disability discrimination statutes, the
courts of appeals have disagreed with respect to the
proper treatment of employment decisions that are
based on conduct caused by an employee’s or
applicant’s disability. In such cases, which arise with
some frequency, the employer will typically contend
that the plaintiff’s conduct—often labeled as
“misconduct”—is conceptually distinct from the
plaintiff’s underlying disability and thus provides a
lawful, non-discriminatory basis for the employment
action in question. In the decision below, the Fourth
Circuit endorsed that purported distinction, which
also finds support in the Fifth Circuit’s precedent.
Four courts of appeals, however, have reached
precisely the opposite conclusion.
The question presented is whether an employment
decision that is based on conduct caused by a qualified
individual’s disability is insulated from scrutiny
under the federal disability discrimination statutes on
the ground that the decision is not made on the basis
of disability.

(I)

II
PARTIES TO THE PROCEEDING

Petitioner Hannah P. was the appellant in the
court of appeals. Petitioner was identified by her first
name and last initial in the courts below, pursuant to
a protective order entered by the district court in this
case. We continue to follow that convention in this
Court. See, e.g., Adoptive Couple v. Baby Girl, 570
U.S. 637 (2013).
Daniel Coats, the former Director of the Office of
the Director of National Intelligence, was the appellee
in the court of appeals. Pursuant to Rule 35(1) of the
Rules of this Court, Acting Director of National
Intelligence Joseph Maguire has been substituted as
the respondent in this proceeding.
RELATED PROCEEDINGS

United States District Court (E.D. Va.):
Hannah P. v. Daniel Coats, No. 16-CV-01030 (July
27, 2017) (granting summary judgment to the
defendant)
Hannah P. v. Daniel Coats, No. 16-CV-01030 (July
29, 2019) (staying further proceedings pending
this Court’s consideration of a petition for a
writ of certiorari)
United States Court of Appeals (4th Cir.):
Hannah P. v. Daniel Coats, No. 17-1943 (Feb. 19,
2019) (reversing in part and affirming in part)

III
TABLE OF CONTENTS
Page

Opinions below ................................................................... 1
Jurisdiction ........................................................................ 1
Statutory provisions involved ............................................ 2
Statement ........................................................................... 2
Reasons for granting the petition .................................... 10
A. The decision below squarely implicates a
conflict among the courts of appeals .................... 10
B. The decision below is incorrect............................. 24
C. The question presented is important, and
this case presents an excellent vehicle to
resolve it ............................................................... 32
Conclusion ........................................................................ 34
Appendix A — Court of appeals opinion (Feb. 19,
2019) ....................................................... 1a
Appendix B — District court opinion (July 27,
2017) ..................................................... 63a
Appendix C — District court order (July 27, 2017) ..... 77a
Appendix D — Court of appeals order denying
rehearing (June 25, 2019) .................... 79a
Appendix E — Statutory provisions ............................. 81a
TABLE OF AUTHORITIES

Cases:
Brown v. Lucky Stores, Inc., 246 F.3d 1182 (9th
Cir. 2001) ................................................................... 4
Caporicci v. Chipotle Mexican Grill, Inc., 729
Fed. Appx. 812 (9th Cir. 2018) ................................ 23
Chandler v. Specialty Tires of America (Tenn.),
Inc., 134 Fed. Appx. 921 (6th Cir. 2005) ........... 21, 22
Cushing v. Moore, 970 F.2d 1103 (2d Cir. 1992) ....... 32
Dark v. Curry Cty., 451 F.3d 1078 (9th Cir.
2006) .................................................................. 11, 16

IV
Cases—Continued:

Page

Den Hartog v. Wasatch Acad., 129 F.3d 1076
(10th Cir. 1997) ................................................passim
Doebele v. Sprint/United Mgmt. Co., 342 F.3d
1117 (10th Cir. 2003)............................................... 17
Douglas v. California Dep’t of Youth Auth., 285
F.3d 1226 (9th Cir. 2002) ........................................ 11
Douglas v. District of Columbia Hous. Auth.,
981 F. Supp. 2d 78 (D.D.C. 2013)............................ 23
EEOC v. Amego, Inc.,110 F.3d 135 (1st Cir.
1997) ........................................................................ 32
Greer v. Emerson Elec. Co., 185 F.3d 917 (8th
Cir. 1999) ................................................................. 32
Guerriero v. Schultz, 557 F. Supp. 511 (D.D.C.
1983) ........................................................................ 32
Hainze v. Richards, 207 F.3d 795 (5th Cir.
2000) ........................................................................ 11
Halpern v. Wake Forest Univ. Health Scis., 669
F.3d 454 (4th Cir. 2012) .......................................... 23
Hamilton v. Southwest Bell Tel. Co., 136 F.3d
1047 (5th Cir. 1998)................................................. 18
Harris v. Polk Cty., 103 F.3d 696 (8th Cir.
1996) ........................................................................ 32
Hoffman v. City of Bethlehem, 739 Fed. Appx.
144 (3rd Cir. 2018) .................................................. 19
Hogarth v. Thornburgh, 833 F. Supp. 1077
(S.D.N.Y. 1993) ........................................................ 32
Humphrey v. Memorial Hosps. Ass’n, 239 F.3d
1128 (9th Cir. 2001)................................12, 15, 16, 18
Jones v. Walgreen Co., 679 F.3d 9 (1st Cir.
2012) ........................................................................ 28
Macy v. Hopkins Cty. Sch. Bd. of Educ., 484
F.3d 357 (6th Cir. 2007) .......................................... 22

V
Cases—Continued:

Page

Maddox v. University of Tenn., 62 F.3d 843
(6th Cir. 1995) ......................................................... 21
Martinson v. Kinney Shoe Corp., 104 F.3d 683
(4th Cir. 1997) ............................................. 17, 25, 26
Matthews v. Commonwealth Edison Co., 128
F.3d 1194 (7th Cir. 1997) ........................................ 21
McDonnell Douglas Corp. v. Green, 411 U.S.
792 (1973) .................................................................. 8
McKenzie v. Dovala, 242 F.3d 967 (10th Cir.
2001) .................................................................. 11, 12
McMillan v. City of New York, 711 F.3d 120 (2d
Cir. 2013) ..........................................................passim
Miller v. Hersman, 759 F. Supp. 2d 1 (D.D.C.
2010) .................................................................. 22, 23
Nusser v. Potter, No. 06-12235, 2007 WL
2080424 (E.D. Mich. July 19, 2007) ........................ 22
Palmer v. Circuit Court of Cook Cty., 117 F.3d
351 (7th Cir. 1997)................................................... 20
PGA Tour, Inc. v. Martin, 532 U.S. 661 (2001) ......... 31
Phillips v. Center for Vision Loss, No. 3:15-CV00563, 2017 WL 839465 (M.D. Pa. Mar. 3,
2017) ........................................................................ 20
Regional Econ. Cmty. Action Program, Inc. v.
City of Middletown, 294 F.3d 35 (2d Cir.
2002) .......................................................................... 4
Salley v. Circuit City Stores, Inc., 160 F.3d 977
(3rd Cir. 1998) ................................................... 19, 28
School Bd. of Nassau County v. Arline, 480
U.S. 273 (1987) ........................................................ 27
Seitz v. Lane Furniture Indus., Inc., No.
07CV171, 2008 WL 4346439 (N.D. Ohio Sept.
17, 2008) .................................................................. 22

VI
Cases—Continued:

Page

Sever v. Henderson, 220 Fed. Appx. 159 (3rd.
Cir 2007) .................................................................. 19
Southeastern Cmty. Coll. v. Davis, 442 U.S. 397
(1979) ....................................................................... 28
Teahan v. Metro-North Commuter R.R. Co., 80
F.3d 50 (2nd Cir. 1996)............................................ 14
Teahan v. Metro-North Commuter R.R. Co.,
951 F.2d 511 (2d Cir. 1991) ..............................passim
Valentine v. Standard & Poor’s, 50 F. Supp. 2d
262 (S.D.N.Y. 1999) ................................................. 32
Vandenbroek v. PSEG Power, CT LLC, 356
Fed. Appx. 457 (2d Cir. 2009) ................................. 13
Vannoy v. Federal Reserve Bank of Richmond,
827 F.3d 296 (4th Cir. 2016) ..................................... 9
Verzeni v. Potter, 109 Fed. Appx. 485 (3rd Cir.
2004) ........................................................................ 19
Walton v. Spherion Staffing LLC, 152 F. Supp.
3d 403 (E.D. Pa. 2015) ............................................. 32
Walz v. Ameriprise Fin., Inc.,22 F. Supp. 3d
981 (D. Minn. 2014), aff’d on other grounds,
779 F.3d 824 (8th Cir. 2015) ................................... 32
Ward v. Massachusetts Health Research Inst.,
Inc., 209 F.3d 29 (1st Cir. 2000) .............11, 14, 15, 18
Williams v. Widnall, 79 F.3d 1003 (10th Cir.
1996) .......................................................................... 4
Willis v. Norristown Area Sch. Dist., 2 F. Supp.
3d 597 (E.D. Pa. 2014) ............................................. 32
Statutes and regulation:
Americans with Disabilities Act, 42 U.S.C
§ 12101 et seq. ............................................................ 3
42 U.S.C. § 12111(8) ........................................... 3, 4
42 U.S.C. § 12112(a) ......................................... 3, 24

VII
Statututes and regulation—Continued:

Page

42 U.S.C. § 12112(b)(4) ......................................... 16
42 U.S.C. § 12112(b)(5)(A) ................................ 4, 29
42 U.S.C. § 12112(b)(5)(B) ................................ 4, 29
42 U.S.C. § 12112(b)(6) ..................................... 4, 29
42 U.S.C. § 12113(a) ............................................... 5
42 U.S.C. § 12113(b) ......................................... 5, 29
42 U.S.C. § 12114(c)(4) ..................................... 5, 30
Family and Medical Leave Act of 1993, 29
U.S.C. § 2601 et seq. .................................................. 7
Rehabilitation Act of 1973, 29 U.S.C. § 701 et
seq.:
29 U.S.C. § 794(a) ................................................... 3
29 U.S.C. § 794(d) ....................................... 3, 11, 24
Rehabilitation Act Amendments of 1992, Pub.
L. No. 102-569, § 506, 106 Stat. 4344 (1992) .......... 13
29 C.F.R. § 1614.203(b) ................................................ 3
Miscellaneous:
American Psychological Ass’n, Diagnostic and
Statistical Manual of Mental Disorders (5th
ed. 2013) .................................................................. 31
American Psychological Ass’n, Mental Health
Issues Increased Significantly Over Last
Decade (Mar. 14, 2019),
https://www.apa.org/news/press/releases/2019
/03/mental-health-adults ......................................... 34
Brian T. Rabineau, Note, Those with
Disabilities Take Heed, 65 Mo. L. Rev. 319
(2000) ....................................................................... 24

VIII
Miscellaneous—Continued:

Page

Catherine A. Okoro, et al., Prevalence of
Disabilities and Health Care Access by
Disability Status and Type Among Adults —
United States, 2016, 67 Morbidity and
Mortality Weekly Report 882 (2018)....................... 33
Council for Disability Awareness, Chances of
Disability (Mar. 28, 2018),
https://disabilitycanhappen.org/disabilitystatistic/ ................................................................... 33
Dustin Riddle & Richard Bales, Disability
Claims for Alcohol-Related Misconduct, 82 St.
John’s L. Rev. 699 (2008) ........................................ 23
EEOC, Americans with Disabilities Act of 1990
(ADA) Charges FY 1997–FY 2018,
https://www.eeoc.gov/eeoc/statistics/enforcem
ent/ada-charges.cfm ................................................ 33
EEOC, The Americans With Disabilities Act:
Applying Performance And Conduct
Standards To Employees With Disabilities,
https://www.eeoc.gov/facts/performanceconduct.html .............................................................. 4
Kelly Cahill Timmons, Accommodating
Misconduct under the Americans with
Disabilities Act, 57 Fla. L. Rev. 187 (2005) ....... 23, 31
Sarah Shaw, Comment, Why Courts Cannot
Deny ADA Protection to Plaintiffs Who Do
Not Use Available Mitigating Measures for
Their Impairments, 90 Calif. L. Rev. 1981
(2002) ....................................................................... 24
Susan Stefan, Hollow Promises: Employment
Discrimination Against People with Mental
Disabilities 154 (2002)............................................. 31

IX
Miscellaneous—Continued:

Page

United States Courts, Just the Facts:
Americans with Disabilities Act (July 12,
2018), https://www.uscourts.gov/
news/2018/07/12/just-facts-americansdisabilities-act ......................................................... 33

In the Supreme Court of the United States
NO.
HANNAH P., PETITIONER

v.
JOSEPH MAGUIRE, ACTING DIRECTOR OF THE OFFICE OF
THE DIRECTOR OF NATIONAL INTELLIGENCE
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

Petitioner Hannah P. respectfully petitions for a
writ of certiorari to review the judgment of the United
States Court of Appeals for the Fourth Circuit in this
case.
OPINIONS BELOW

The opinion of the court of appeals (App., infra, 1a62a) is reported at 916 F.3d 327. The memorandum
opinion of the district court (App., infra, 63a-76a) is
unreported but is available at 2017 WL 3202726.
JURISDICTION

The judgment of the Court of Appeals was entered
on February 19, 2019. A petition for rehearing was
denied on June 25, 2019 (App., infra, 79a-80a). On
September 18, 2019, the Chief Justice extended the
time within which to file a petition for a writ of
certiorari to and including October 23, 2019. This
Court’s jurisdiction is invoked under 28 U.S.C.
§ 1254(1).
(1)

2
STATUTORY PROVISIONS INVOLVED

The relevant statutory provisions are set forth at
App., infra, 81a-90a.
STATEMENT

For years, petitioner worked a “maxi flex”
schedule, with no set hours, as a term-limited
employee of the Office of the Director of National
Intelligence (ODNI). App., infra, 5a. ODNI tasked
petitioner with the agency’s response to Edward
Snowden’s leak of highly classified information, and
her performance was generally viewed as
“outstanding.” Id. at 4a.
Petitioner, however, suffered from diagnosed
depression. App., infra, 4a. As her Snowden
assignment drew to a close, petitioner’s supervisors
began to complain about her “sad” and “almost trance
like” affect. Id. at 6a. They began asking her to arrive
at work by a specific hour and then bristled when her
depression resulted in tardiness and unplanned
absences. Id. at 6a-7a. Petitioner took a medical leave
of absence to focus on treatment, and upon her return
she interviewed for a permanent ODNI position. Id. at
9a-10a. The interview panel recommended hiring
petitioner, id. at 10a, but an ODNI administrator
torpedoed her application because of her “absences
and late arrivals,” id. at 26a.
Petitioner filed this lawsuit under the
Rehabilitation Act of 1973, alleging that ODNI’s
failure to hire her constituted unlawful discrimination
on the basis of her depression. App., infra, 11a. The
Fourth Circuit affirmed the district court’s grant of
summary judgment against petitioner because, even
though it had “no doubt that [petitioner’s] struggle
with depression was the cause of her attendance

3
issues,” id. at 29a, it concluded that the adverse action
against her was not taken because of her disability.
This case thus raises the important and frequently
recurring question of whether federal disability
discrimination law generally prohibits employers
from taking adverse action against qualified
employees and applicants on the basis of conduct
caused by their disabilities. Four circuits have held
that it does; two (including the Fourth Circuit in the
decision below) have held that it does not. This Court
should grant certiorari to review the erroneous
decision of the court of appeals and resolve the circuit
conflict.
1. The Rehabilitation Act of 1973 broadly prohibits
disability discrimination “under any program or
activity conducted by any Executive agency.” 29
U.S.C. § 794(a). In cases alleging discrimination in
employment, the Rehabilitation Act incorporates the
standards of the Americans with Disabilities Act
(ADA), 42 U.S.C § 12101 et seq. See 29 U.S.C. § 794(d);
29 C.F.R. § 1614.203(b). Under the ADA, an employer
may not “discriminate against a qualified individual
on the basis of disability.” 42 U.S.C. § 12112(a). As a
general matter, the term “qualified individual” means
an “individual who, with or without reasonable
accommodation, can perform the essential functions of
the employment position that such individual holds or
desires.” Id. § 12111(8).
The ADA defines disability discrimination
expansively and, in some circumstances, requires
employers to make exceptions to otherwise-applicable
employment standards. For example, an employer
may be liable for discrimination if it fails to provide
“reasonable accommodations to the known physical or
mental limitations of an otherwise qualified

4
individual with a disability,” or if it denies
employment opportunities to an otherwise-qualified
job applicant or employee because of “the need * * * to
make reasonable accommodation to [that person’s]
physical or mental impairment.” 42 U.S.C.
§ 12112(b)(5)(A) and (B). An employer may also be
liable for discrimination by “using qualification
standards, employment tests or other selection
criteria that screen out or tend to screen out an
individual with a disability * * * unless the standard,
test or other selection criteria * * * is shown to be jobrelated for the position in question and is consistent
with business necessity.” Id. § 12112(b)(6).
In certain specified circumstances, however, the
ADA expressly authorizes employers to take adverse
employment actions based on conduct resulting from
an individual’s disability, even if that conduct does not
render the individual unqualified, in the sense that
she cannot perform the “essential functions” of the
position in question. 42 U.S.C. § 12111(8). For
example, although addiction may qualify as a
disability under the ADA, 1 the statute generally
authorizes employers to take adverse employment
actions based on conduct resulting from alcohol or
drug addiction. Most directly, Congress provided that
See, e.g., Regional Econ. Cmty. Action Program, Inc. v. City
of Middletown, 294 F.3d 35, 46 (2d Cir. 2002); Brown v. Lucky
Stores, Inc., 246 F.3d 1182, 1187 (9th Cir. 2001); Williams v.
Widnall, 79 F.3d 1003, 1005 (10th Cir. 1996); EEOC, The
Americans With Disabilities Act: Applying Performance And
Conduct Standards To Employees With Disabilities,
https://www.eeoc.gov/facts/performance-conduct.html
(“The
ADA may protect a ‘qualified’ alcoholic who can meet the
definition of ‘disability.’”).
1

5
the term “qualified individual” does not encompass
“any employee or applicant who is currently engaging
in the illegal use of drugs,” when the employer “acts
on the basis of such use.” Id. § 12114(a). The ADA
further provides that employers
may hold an employee who engages in the illegal
use of drugs or who is an alcoholic to the same
qualification standards for employment or job
performance and behavior that such entity holds
other employees, even if any unsatisfactory
performance or behavior is related to the drug use
or alcoholism of such employee.
Id. § 12114(c)(4).
The ADA separately provides that “[i]t may be a
defense to a charge of discrimination * * * that an
alleged application of qualification standards, tests, or
selection criteria” that would otherwise constitute
prohibited discrimination “has been shown to be jobrelated and consistent with business necessity.” 42
U.S.C. § 12113(a). The ADA specifically provides that
the “term ‘qualification standards’ may include a
requirement that an individual shall not pose a direct
threat to the health or safety of other individuals in
the workplace,” id. § 12113(b), with “direct threat”
defined to mean “a significant risk to the health or
safety of others that cannot be eliminated by
reasonable accommodation,” id. § 12111(3).
2. In 2011, petitioner was hired by ODNI to a fiveyear term of employment as an operations analyst.
App., infra, 3a. Shortly after being hired, petitioner
was diagnosed with depression. Id. at 4a. For a time,
however, petitioner’s depression did not affect her job
performance. To the contrary, she “generally received
glowing reviews from her supervisors,” who

6
characterized her as an “outstanding” and “highperforming employee.” Ibid.
In November 2013, petitioner was assigned to
coordinate ODNI’s response to Edward Snowden’s
unauthorized disclosures of classified information, a
demanding assignment that required her to work long
and unpredictable hours. App., infra, 4a-5a. During
this period, petitioner worked a “maxi flex” schedule,
which required her to work a certain number of hours
over the course of two-week periods but did not dictate
any particular working hours each day. Id. at 5a. In
light of the nature of her assignment and the
flexibility afforded by her “maxi flex” schedule,
petitioner started and ended work later than
traditional business hours. Ibid.
After petitioner completed the Snowden
assignment, however, her supervisors and co-workers
began to register concerns regarding her work hours
and unplanned absences. App., infra, 5a. Petitioner’s
supervisors found her demeanor to be “sad, very flat,
and almost trance like,” and petitioner reported to
them that she had recently changed the medication
used to treat her depression. Id. at 6a.
In March 2015, petitioner and her supervisors
developed a plan to reconcile petitioner’s depression
with ODNI’s new attendance expectations for her.
App., infra, 6a. That plan involved certain
adjustments to petitioner’s work hours, as well as
procedures for petitioner to notify her supervisors that
she would be late or absent and for her supervisors to
contact her if she did not arrive by an appointed time.
Ibid. Petitioner’s supervisors nonetheless continued
to claim dissatisfaction with her attendance and
reporting through early May 2015, at which point
petitioner took a four-week leave of absence to address

7
her depression. Id. at 8a-9a. Notwithstanding those
concerns,
petitioner
ultimately
received
a
performance grade of “Excellent” and was awarded a
performance-based bonus for fiscal year 2015, which
included the period in which her depression symptoms
were at their worst. See 2 C.A. App. 406-407, 658-660.
Just before petitioner took her leave of absence,
she applied for a permanent position with ODNI as a
program mission manager. App., infra, 10a. Petitioner
interviewed for the position after her return from
leave, and the interview panel unanimously
recommended that she be hired. Ibid.; 1 C.A. App. 206.
When petitioner’s application was forwarded to
ODNI’s Chief Management Officer, however, he recommended that petitioner not be selected, stating that
her “recent performance [was] not consistent with a
potentially good employee.” App., infra, 10a; see also
id. at 26a (referring to petitioner’s issues with “attendance at work” and her record of “absences and late
arrivals”). Petitioner was informed in July 2015 that
she had not been selected for the permanent position,
and she completed her five-year term as an operations
analyst in March 2016. Id. at 10a.
3. After exhausting her administrative remedies,
petitioner filed suit under the Rehabilitation Act and
the Family and Medical Leave Act of 1993 (FMLA), 29
U.S.C. § 2601 et seq. As relevant here, petitioner
alleged that ODNI’s refusal to hire her for the
permanent
position
constituted
disability
discrimination in violation of the Rehabilitation Act.
App., infra, 10a. 2
Separately, petitioner alleged that ODNI had violated the
Rehabilitation Act by failing to accommodate her depression,
creating a hostile work environment, requiring her to submit to
a medical examination, and unlawfully disclosing her con2

8
The district court entered summary judgment
against petitioner. App., infra, 82a. With respect to
petitioner’s Rehabilitation Act claim for hiring
discrimination, the district court applied the burdenshifting framework of McDonnell Douglas Corp. v.
Green, 411 U.S. 792 (1973), and held that, even if
petitioner could establish a prima facie claim of
discrimination, she could not “rebut the legitimate,
non-discriminatory reason that ODNI declined to hire
[petitioner] for the position—that [petitioner] had significant attendance and reporting problems.” App.,
infra, 75a-76a.
4. A divided panel of the Fourth Circuit affirmed
in relevant part. App., infra, 1a-36a. 3
a. The panel majority affirmed the dismissal of
petitioner’s
Rehabilitation
Act
claim
for
discrimination in hiring. The panel majority
“assum[ed] that [petitioner] established a prima facie
case of discrimination,” which includes a showing that
“she is disabled” and is “otherwise qualified” for the
permanent position she sought. App., infra, 23a-24a.
fidential medical information. App., infra, 10a. Petitioner further
alleged that ODNI had violated the FMLA by interfering with
her right to medical leave and retaliating against her for
invoking that right. Ibid.
The court of appeals also affirmed the district court’s
dismissal of the remainder of petitioner’s claims under the
Rehabilitation Act and the dismissal of her FMLA retaliation
claim. App., infra, 36a. The court of appeals reversed and
remanded for further proceedings on petitioner’s claim that
ODNI had unlawfully interfered with her right to medical leave
under the FMLA. Ibid. On remand, the district court has stayed
further proceedings on that claim pending this Court’s
disposition of this petition for a writ of certiorari. 16-cv-01030
Docket entry No. 92 (E.D. Va. July 29, 2019).
3

9
The panel majority held, however, that ODNI’s
“proffered explanation” for its decision—which relied
exclusively on petitioner’s issues with attendance and
reporting—was “genuine, legitimate, and nondiscriminatory.” Id. at 27a.
The panel majority rejected petitioner’s argument
that, because her attendance issues were caused by
her disability, ODNI could not lawfully withhold an
employment benefit on that basis. App., infra, 28a29a. The panel majority stated that it had “no doubt
that [petitioner’s] struggle with depression was the
cause of her attendance issues,” id. at 29a, and it did
not conclude that those issues rendered her
unqualified for the permanent position she sought.
Instead, the panel majority invoked circuit precedent
holding that “the Rehabilitation Act ‘does not require
an employer to simply ignore an employee’s blatant
and persistent misconduct, even where that behavior
is potentially tied to a medical condition.’” Ibid.
(quoting Vannoy v. Federal Reserve Bank of
Richmond, 827 F.3d 296, 305 (4th Cir. 2016)). The
panel majority therefore held that ODNI was
“permitted to take [petitioner’s] attendance issues
into account in its decision whether to hire her.” Ibid.
b. Chief Judge Gregory dissented in part. App.,
infra, 37a-62a. With respect to petitioner’s
Rehabilitation Act claim for discrimination in hiring,
Chief Judge Gregory would have held that petitioner
had raised triable issues of fact sufficient to avoid
summary judgment. Id. at 47a-53a. He did not
question the panel majority’s holding that, under
Fourth Circuit precedent, ODNI was free to withhold
an employment benefit on the basis of “misconduct”
resulting from petitioner’s depression. In his view,
however, a reasonable factfinder could have found

10
that ODNI’s proffered explanation for its refusal to
hire petitioner was pretextual, due to conflicting
evidence as to the seriousness of petitioner’s attendance issues and certain inconsistences in statements
made by ODNI’s Chief Management Officer, who had
recommended that petitioner not be hired. Id. at 51a53a.
5. The court of appeals subsequently denied a
petition for rehearing en banc, over the votes of Chief
Judge Gregory and Judge King. App., infra, 79a-80a.
REASONS FOR GRANTING THE PETITION
A. The Decision Below Squarely Implicates A
Conflict Among the Courts of Appeals

In addressing claims under the federal disability
discrimination statutes, the courts of appeals have
sharply disagreed over the proper treatment of
employment decisions that are based on conduct
caused by an employee’s or applicant’s disability. In
such cases, the employer typically will contend that
the plaintiff’s conduct—which it will often label as
“misconduct”—is conceptually distinct from the
plaintiff’s underlying disability and thus provides a
lawful, non-discriminatory basis for the employment
decision in question.
The First, Second, Ninth, and Tenth Circuits have
squarely rejected that argument, holding instead that
conduct caused by a disability is indistinguishable
from the disability. Those courts have accordingly
focused on whether the conduct at issue renders the
plaintiff unqualified for the position in question or
triggers an express exception to the protections
afforded by statute. In the absence of such a showing,
those courts have ruled, so-called “misconduct”

11
resulting from a disability cannot provide a lawful
basis for taking an adverse employment action.
By contrast, the Fourth and Fifth Circuits have
held that so-called “misconduct” caused by a disability
is distinct from the underlying disability and can
provide a lawful, non-discriminatory basis for taking
an employment action. Thus, these courts permit an
employer to justify an employment decision by
pointing to “misconduct” resulting directly from a
disability, thereby avoiding any inquiry into whether
that “misconduct” renders the plaintiff unqualified for
the position in question or triggers a statutory
exception to liability.
This Court should grant review to resolve this split
of authority and provide much-needed guidance on an
issue that has led to substantial uncertainty in the
lower courts.
1. The First, Second, Ninth, and Tenth Circuits
have held that the federal disability discrimination
statutes do “not contemplate a stark dichotomy
between
‘disability’
and
‘disability-caused
misconduct,’ but rather protect[] both.” McKenzie v.
Dovala, 242 F.3d 967, 974 (10th Cir. 2001); accord
McMillan v. City of New York, 711 F.3d 120, 129 (2d
Cir. 2013); Dark v. Curry Cty., 451 F.3d 1078, 1084
(9th Cir. 2006); Ward v. Massachusetts Health
Research Inst., Inc., 209 F.3d 29, 38 (1st Cir. 2000). 4
Thus, when an employer seeks to justify an
employment decision by pointing to conduct resulting
Because the Rehabilitation Act incorporates the standards
of the ADA by reference for employment cases, see 29 U.S.C.
§ 794(d); p. 3, supra, courts treat Rehabilitation Act and ADA
precedents as interchangeable. E.g., Douglas v. California Dep’t
of Youth Auth., 285 F.3d 1226, 1229 n.3 (9th Cir. 2002); Hainze
v. Richards, 207 F.3d 795, 799 (5th Cir. 2000).
4

12
from an individual’s disability, those courts examine
whether the conduct renders the individual
unqualified for the position in question or triggers a
statutory exception to liability, such as the ADA’s
“direct threat” defense or the specific rules governing
intoxication and illegal drug use. See, e.g., McKenzie,
242 F.3d at 974-975; Humphrey v. Memorial Hosps.
Ass’n, 239 F.3d 1128, 1139 n.18 (9th Cir. 2001). If the
individual is qualified and no statutory exception
applies, an employer cannot take adverse employment
action against that individual on the basis of conduct
caused by her disability.
a. The Second Circuit’s decision in McMillan v.
City of New York, 711 F.3d 120 (2013), illustrates this
approach. In that case, a city employee was routinely
late for work due to complications associated with his
schizophrenia medication. Id. at 123-124. The
employee was terminated, and he brought suit
alleging disability discrimination in violation of the
ADA. Id. at 124. The city attempted to justify its
action by asserting that the termination decision was
attributable not to the plaintiff’s disability, but rather
to the tardiness it had caused. Id. at 125. The Second
Circuit rejected this purported distinction, stressing
that it was “undisputed that [the plaintiff] was tardy
because of his disability and that he was disciplined
because of his tardiness.” Id. at 129. In these
circumstances, the court explained, the plaintiff “was
disciplined because of his disability.” Ibid. (emphasis
added). The Second Circuit therefore held that the
employer had not articulated a legitimate, nondiscriminatory reason for the challenged action and
that the plaintiff was thus under no obligation to
establish that the proffered explanation was
pretextual. Ibid. On the employer’s own account of its

13
decision, the plaintiff had been terminated because of
his disability, and the plaintiff was required only to
“demonstrate that, with reasonable accommodations,
he could have performed the essential functions of his
job.” Ibid.
The Second Circuit in McMillan relied on the
court’s prior decision in Teahan v. Metro-North
Commuter Railroad Co., 951 F.2d 511 (2d Cir. 1991).
Teahan involved an employee who had been fired for
absenteeism, which he attributed to the effects of
alcoholism. Id. at 513-514. The Second Circuit held
that, if the plaintiff’s absenteeism was in fact
attributable to his alcoholism, then the plaintiff had
been terminated by reason of his disability. Id. at 517.
With that element established, whether the
employer’s decision was actionable would then turn on
whether the plaintiff’s absenteeism rendered him
unqualified, because “[i]f the consequences of the
handicap are such that the employee is not qualified
for the position, then a firing because of that handicap
is not discriminatory.” Id. at 516. 5

One year after Teahan was decided, the Rehabilitation Act
was amended to incorporate the ADA’s standards for
employment discrimination cases, including the exception
permitting employers to take adverse action on the basis of
conduct caused by alcoholism. See Rehabilitation Act
Amendments of 1992, Pub. L. No. 102-569, § 506, 106 Stat. 4344,
4428 (1992). Because the conduct at issue in Teahan falls within
this statutory exception, that case would have resulted in a
different outcome if adjudicated under the Rehabilitation Act as
it stands today. Even though the case would now come out
differently on its facts, Teahan’s holding as to the proper
approach in cases of disability-caused conduct remains good law.
See, e.g., Vandenbroek v. PSEG Power, CT LLC, 356 Fed. Appx.
457, 459-460 (2d Cir. 2009) (noting that Teahan was decided
5

14
Accordingly, both McMillan and Teahan focused
on the plaintiffs’ qualifications to perform the
positions in question. Indeed, that was the ground on
which the plaintiff’s claim in Teahan was ultimately
resolved, with the Second Circuit affirming the
district court’s conclusion on remand that the
plaintiff’s alcoholism-related conduct rendered him
unqualified for his position. See Teahan v. MetroNorth Commuter R.R. Co., 80 F.3d 50, 53-55 (1996).
Likewise, the court in McMillan emphasized the
“importance of a penetrating factual analysis” that
takes into account “both the employer’s description of
a job and how the job is actually performed in
practice.” 711 F.3d at 126. Citing evidence in the
record that the plaintiff was permitted to arrive at
work late for many years and that the employer’s
policies contemplated flexible work schedules, the
court concluded that, although timeliness would
“normally” constitute an “essential function” of most
positions, the record revealed a genuine dispute of fact
as to whether the plaintiff’s tardiness rendered him
unqualified for his position. Ibid. Thus, the court
reversed the district court’s grant of summary
judgment for the city and remanded for further
proceedings. Id. at 129.
b. The First Circuit reached the same result in
Ward v. Massachusetts Health Research Institute,
Inc., 209 F.3d 29 (2000), another case that involved an
employee who had been terminated because of
disability-caused tardiness. Id. at 32. The plaintiff
alleged that his tardiness was caused by severe
arthritis, but the district court held that “even if the
under a superseded version of the law but nonetheless relying on
its analysis).

15
appellant was fired because of his tardiness, it does
not follow that he was fired because of the arthritis.”
Id. at 38 (internal quotation marks omitted). The First
Circuit reversed, holding that, because “the tardiness
flows directly from the arthritis * * * , a finding
against [the plaintiff] on [the causation] element was
improper.” Ibid. The court thus rejected the
defendant’s proffered distinction between the
plaintiff’s disability (his arthritis) and conduct caused
by that disability (his tardiness).
Instead, as with the Second Circuit in McMillan,
the First Circuit focused on whether the plaintiff’s
tardiness rendered him unqualified for his position.
Ward, 209 F.3d at 33-37. After conducting a thorough
examination of the plaintiff’s position and the
practices of his employer, the court determined that
the record did not support the defendant’s argument
“that a set schedule is an essential requirement for
Ward’s job.” Id. at 35. Accordingly, the court reversed
the district court’s grant of summary judgment for the
employer. Id. at 37.
c. The Ninth Circuit’s decision in Humphrey v.
Memorial Hospitals Ass’n, 239 F.3d 1128 (2001), is of
a piece. The plaintiff in Humphrey had been
terminated due to tardiness that she attributed to the
effects of her obsessive compulsive disorder. Id. at
1133. In reversing the district court’s grant of
summary judgment in favor of the employer on the
plaintiff’s ADA claim, the Ninth Circuit held that the
plaintiff had established a triable issue of fact with
respect to her assertion that her tardiness was caused
by a disability. Id. at 1140. The Ninth Circuit
concluded that this showing was, in turn, sufficient to
preclude summary judgment on the plaintiff’s
discrimination claim because, as a general matter,

16
“conduct resulting from a disability is considered to be
part of the disability, rather than a separate basis for
termination.” Id. at 1139-1140. 6
d. The Tenth Circuit’s decision in Den Hartog v.
Wasatch Academy, 129 F.3d 1076 (1997), takes the
same approach, albeit with a different bottom-line
result. In that case, the plaintiff’s son suffered from
bipolar disorder, which caused him to engage in
disruptive activity at the school where the plaintiff
worked. Id. at 1077. As a result of his son’s behavior,
the plaintiff’s employment contract was not renewed.
Id. at 1080.
The Tenth Circuit first concluded that the ADA
protected the plaintiff from discrimination on the
basis of his son’s disability. Den Hartog, 129 F.3d at
1082 (relying on 42 U.S.C. § 12112(b)(4), which
prohibits discrimination “because of the known
disability of an individual with whom the qualified
individual is known to have a relationship or
association”). The court then rejected the school’s
argument that the termination of an employee on the
basis of disability-caused misconduct is insulated
from scrutiny under the ADA. Id. at 1086. The court
concluded that the ADA’s carve-outs for misconduct
caused by alcohol and drug-related disabilities
established that there is generally no distinction
between disability and conduct in other contexts. Ibid.
Ultimately, however, the court held that the
plaintiff’s son was a “direct threat” to others in the
In addition to applying the express statutory exceptions for
drug and alcohol use, the Ninth Circuit has posited an exception
to its general rule for “egregious and criminal misconduct.” Dark
v. Curry Cty., 451 F.3d 1078, 1084 n.3 (9th Cir. 2006). In
Humphrey, the court held that these exceptions did not apply to
the employee’s tardiness. 239 F.3d at 1139 n.18.
6

17
workplace, see p. 5, supra, and that the plaintiff could
thus be dismissed without violating the ADA. Id. at
1090; see also Doebele v. Sprint/United Mgmt. Co.,
342 F.3d 1117, 1134-1135 (10th Cir. 2003) (reversing
grant of summary judgment in favor of employer
where the plaintiff was not shown to be a direct threat
as a matter of law).
2. The Fourth and Fifth Circuits have adopted the
diametrically opposite position. For those courts, socalled “misconduct” that is caused by a disability may
provide a lawful, non-discriminatory basis for taking
an employment action, even if it does not rise to the
level that would make the plaintiff unqualified for the
position in question.
a. In the decision below, the Fourth Circuit held
that “misconduct—even misconduct related to a
disability—is not itself a disability, and an employer
is free to fire an employee on that basis.” App., infra,
29a (quoting Martinson v. Kinney Shoe Corp., 104
F.3d 683, 686 n.3 (4th Cir. 1997)). It applied that rule
to petitioner, despite both assuming that she was
qualified and acknowledging that there was “no doubt
that [her] struggle with depression was the cause of
her attendance issues.” Id. at 24a, 29a. Simply put,
because the Fourth Circuit labeled petitioner’s attendance issues as “misconduct,” ODNI was free to reject
petitioner’s job application on the basis of conduct
caused by her depression—even if that conduct did not
render her unqualified. Id. at 29a.
In that crucial respect, the decision below directly
conflicts with the decisions of the First, Second, Ninth,
and Tenth Circuits discussed above. In those circuits,
when an employer seeks to defend against a
discrimination claim by pointing to so-called
“misconduct” caused by a disability, the courts will

18
engage in a penetrating factual inquiry to determine
whether the “misconduct” renders the plaintiff
unqualified for the position in question or triggers a
statutory defense to discrimination liability. See, e.g.,
McMillan, 711 F.3d at 129; Humphrey, 239 F.3d at
1140; Ward, 209 F.3d at 38; Den Hartog, 129 F.3d at
1086. The Fourth Circuit’s approach—under which a
conclusion of “misconduct” entirely insulates the
employer’s decision from scrutiny—short-circuits that
sort of careful, record-based inquiry with respect to
analytically distinct statutory prongs.
b. The Fifth Circuit has reached the same
conclusion as the decision below. In Hamilton v.
Southwest Bell Telephone Co., 136 F.3d 1047 (5th Cir.
1998), the plaintiff argued that his termination for an
emotional outburst caused by post-traumatic stress
disorder violated the ADA. Id. at 1052. The Fifth
Circuit held, however, that the plaintiff’s contention
that the conduct stemmed from his disability was
irrelevant, because an individual cannot “hide behind
the ADA and avoid accountability for his actions.”
Ibid. Without even discussing whether the plaintiff
remained qualified for the position, the court held that
the law did not prohibit adverse employment actions
on the basis of conduct “blamed on an impairment.”
Ibid.
3. The confusion in the lower courts extends well
beyond the six courts of appeals that have taken a
conclusive position on the circuit conflict. A number of
other courts have issued decisions that are difficult to
reconcile with one another or internally inconsistent
decisions that seem to combine elements of both
approaches. This additional confusion reinforces the
need for this Court’s intervention.

19
a. The Third Circuit offers a prime example of this
confusion. On the one hand, a published decision of
the Third Circuit has endorsed the reasoning of those
courts that reject any distinction between disabilitycaused conduct and the underlying disability. See
Salley v. Circuit City Stores, Inc., 160 F.3d 977, 981
(1998). Addressing a terminated employee’s ADA
claim, the Third Circuit noted that “[t]he application
of a facially neutral policy to a disabled employee may
be an unlawful ground for termination if the
employee’s violation stems from his or her disability.”
Ibid. The court explained that “the employer may not
use established policies regulating behavior to shortcircuit the required analysis of whether the employee
can perform the essential functions of the job with a
reasonable accommodation.” Ibid. Although that
observation was arguably dicta—Salley involved an
employee who was terminated for violating his
employer’s drug-abuse policy and thus did not directly
implicate the ADA’s general standards for conduct
caused by disabilities other than drug addiction
(ibid.)—the Third Circuit has reiterated the same
conclusion in a more recent unpublished decision. See
Verzeni v. Potter, 109 Fed. Appx. 485, 489 (2004)
(stating that “the effects” of a mental illness “cannot
be separated from the disability itself”) (citing
Teahan, 951 F.2d at 516).
On the other hand, in a series of unpublished
decisions, the Third Circuit has endorsed the rule that
“an employer is not prohibited from discharging an
employee based on misconduct, even if that
misconduct is related to his disability.” E.g., Hoffman
v. City of Bethlehem, 739 Fed. Appx. 144, 149 (2018);
Sever v. Henderson, 220 Fed. Appx. 159, 161-162
(2007). Indeed, at least one district court within the

20
Third Circuit has relied on this rule in a case that is
materially indistinguishable from this one. See
Phillips v. Center for Vision Loss, No. 3:15-CV-00563,
2017 WL 839465 (M.D. Pa. Mar. 3, 2017). Even after
assuming that the plaintiff was disabled, that she was
qualified, and that the conduct for which she was fired
was caused by her bipolar disorder, the district court
in Phillips nonetheless held that the plaintiff could
not show discrimination on the basis of disability
“merely by showing that her poor performance and
attitude were caused by her bipolar condition.” Id. at
*10.
b. The Seventh Circuit’s decisions reflect similar
confusion and inconsistency. That court has conflated
the Second Circuit’s focus on qualification with the
Fourth Circuit’s rule distinguishing conduct from
disability. In Palmer v. Circuit Court of Cook County,
117 F.3d 351 (7th Cir. 1997), the court addressed an
ADA claim brought by an employee who was
terminated after threatening her supervisor. Id. at
351-352. The court concluded that “[t]here is no
evidence that [the plaintiff] was fired because of her
mental illness,” even though the “[t]he cause of the
threat was * * * her mental illness.” Id. at 352. The
court broadly announced that, “if an employer fires an
employee because of the employee’s unacceptable
behavior, the fact that that behavior was precipitated
by a mental illness does not present an issue under
the Americans with Disabilities Act.” Ibid. Yet on the
same page, the court arguably limited that rule by
referring to the effect of disability-caused conduct on
an employee’s qualifications to perform the position in
question: “[The ADA] protects only ‘qualified’
employees * * * and threatening other employees
disqualifies one.” Ibid.

21
Matthews v. Commonwealth Edison Co., 128 F.3d
1194 (7th Cir. 1997), evinces similar confusion. In that
case, the court first announced the seemingly clear
rule that, “[e]ven if the individual is qualified, if his
employer fires him for any reason other than that he
is disabled there is no discrimination ‘because of’ the
disability.” Id. at 1196. The court added that this rule
would apply “even if the reason” for the employer’s
decision “is the consequence of the disability.” Ibid.
Yet by the end of the same paragraph, the court
shifted its focus to qualification: “[B]ut if [the
employer] fires [a disabled employee] because he is
unable to do his job, there is no violation, even though
the diabetes is the cause of the worker's inability to do
his job.” Ibid. (emphasis added).
c. The Sixth Circuit’s decisions are also difficult to
square with each other. As an initial matter, the Sixth
Circuit has explicitly rejected the Second Circuit’s
approach in Teahan, holding instead that there is a
meaningful “distinction between discharging someone
for unacceptable misconduct and discharging
someone because of the disability.” Maddox v.
University of Tenn., 62 F.3d 843, 846-847 (1995).
In other cases, however, the Sixth Circuit has
addressed disability-caused conduct by focusing on
whether that conduct renders the plaintiff unqualified
for the position in question. In Chandler v. Specialty
Tires of America (Tennessee), Inc., 134 Fed. Appx. 921
(6th Cir. 2005), for example, the plaintiff alleged that
she was fired because of an attempted suicide, which
had been caused by her depression. Id. at 925. The
Sixth Circuit reversed the district court’s grant of
summary judgment to the plaintiff’s employer,
determining that there was a genuine dispute of
material fact as to whether the plaintiff’s “suicide

22
attempt [limited] her ability to perform” the duties of
her position “or render[ed] her unqualified for her
job.” Id. at 929; accord Macy v. Hopkins Cty. Sch. Bd.
of Educ., 484 F.3d 357, 366 (6th Cir. 2007) (“[A]n
employer may legitimately fire an employee for
conduct, even conduct that occurs as a result of a
disability, if that conduct disqualifies the employee
from his or her job.”) (emphasis added).
Notwithstanding the Sixth Circuit’s recent
decisions taking a more measured approach, however,
district courts within the Sixth Circuit have continued
to cite Maddox for the proposition “that the ADA does
not protect a disabled employee from adverse
employment actions resulting from misconduct
allegedly caused by his disability.” Seitz v. Lane
Furniture Indus., Inc., No. 07CV171, 2008 WL
4346439, at *13 (N.D. Ohio Sept. 17, 2008); see also
Nusser v. Potter, No. 06-12235, 2007 WL 2080424, at
*7 (E.D. Mich. July 19, 2007) (“[T]he Sixth Circuit has
made clear that an employer may fire a person for his
conduct even if that conduct is related to the
employee’s disability.”) (internal quotation marks
omitted). In short, the proper treatment of disabilitycaused misconduct appears to have left courts in the
Sixth Circuit bewildered.
d. Finally, although the D.C. Circuit has not yet
taken a side in the circuit conflict, the District Court
for the District of Columbia has issued conflicting
decisions regarding disability-caused conduct. For
instance, in Miller v. Hersman, 759 F. Supp. 2d 1
(D.D.C. 2010), the court concluded that, because the
employer knew that the plaintiff’s poor performance
was related to his disabilities, a reasonable jury might
find that firing him for his performance issues was
pretextual. Id. at 16. The Miller court thus recognized

23
that an action taken against a qualified employee on
the basis of disability-caused conduct can violate the
Rehabilitation Act. Ibid. By contrast, the court
in Douglas v. District of Columbia Housing Authority,
981 F. Supp. 2d 78 (D.D.C. 2013), noted that the
Rehabilitation Act only forbids adverse actions taken
“because of her perceived disability, rather than
because of instances of misconduct that [the
defendant] perceived as disability-related.” Id. at 90
n.7. This distinction between disability and conduct
caused by a disability is contrary to the holding of
Miller and falls in line with the Fourth and Fifth
Circuits. Indeed, the Douglas court cited Fourth
Circuit precedent to support its conclusion. Ibid.
(citing Halpern v. Wake Forest Univ. Health Scis., 669
F.3d 454, 465 (4th Cir. 2012)).
4. The pervasive confusion in the lower courts has
been documented by courts and commentators alike.
The Eleventh Circuit, for example, has noted that the
“circuits are split,” contrasting the Fourth Circuit’s
rule that “misconduct—even misconduct related to a
disability—is not itself a disability and may be a basis
for dismissal” with the Ninth Circuit’s holding that
“conduct resulting from a disability is considered to be
part of the disability, rather than a separate basis for
termination.” Caporicci v. Chipotle Mexican Grill,
Inc., 729 Fed. Appx. 812, 816 n.5 (2018). A number of
academic commentators have made the same
observation. 7
See, e.g., Dustin Riddle & Richard Bales, Disability Claims
for Alcohol-Related Misconduct, 82 St. John’s L. Rev. 699, 701
(2008) (detailing a split between courts that “distinguish
between the disability and disability-related misconduct” and
those that do not); Kelly Cahill Timmons, Accommodating
Misconduct under the Americans with Disabilities Act, 57 Fla. L.
7

24
*
*
*
In sum, the decision below directly implicates an
acknowledged circuit conflict that has divided six
courts of appeals and generated broader confusion in
the lower courts. This Court’s review is accordingly
warranted.
B. The Decision Below Is Incorrect

This Court’s review is also warranted because the
decision below is incorrect. Discrimination by reason
of conduct caused by a disability is discrimination by
reason of the disability. The Fourth Circuit’s contrary
conclusion is irreconcilable with the statutory text,
the relevant context, and the overriding purpose of the
federal disability discrimination statutes.
1. The Rehabilitation Act and the ADA prohibit
employment discrimination “against a qualified
individual on the basis of disability.” 42 U.S.C.
§ 12112(a); see also 29 U.S.C. § 794(d) (incorporating
the ADA’s standards by reference in cases alleging
employment discrimination). The decision below rests
on an artificially circumscribed understanding of

Rev. 187, 190 (2005) (noting the courts of appeals’ differing
“approaches to cases involving disability-related misconduct”);
Brian T. Rabineau, Note, Those with Disabilities Take Heed, 65
Mo. L. Rev. 319, 330-331 (2000) (noting that many “circuits have
utilized conflicting methods of analysis” regarding the
“conduct/disability distinction”); Sarah Shaw, Comment, Why
Courts Cannot Deny ADA Protection to Plaintiffs Who Do Not Use
Available Mitigating Measures for Their Impairments, 90 Calif.
L. Rev. 1981, 2023 n.260 (2002) (distinguishing between courts
“hold[ing] that termination for conduct that has a strong causal
connection to the underlying disability should be analyzed in the
same way as termination for the disability itself” and other
“courts have rejected this approach”).

25
what it means for an employment decision to be made
“on the basis of disability.”
At its core, the court of appeals’ error lies in
elevating the concept of “misconduct” to dispositive
significance. That ill-defined term, which appears
nowhere in the Rehabilitation Act or the ADA, simply
cannot bear the weight ascribed to it by the court of
appeals. Indeed, if the court of appeals’ distinction
were taken seriously, it would be a rare case in which
an employer’s decision could not be re-cast as a
reaction to an employee’s or applicant’s “misconduct,”
rather than the underlying disability, and thereby
evade scrutiny under the federal disability
discrimination statutes. The employer need only
announce that some manifestation of the employee’s
or applicant’s disability violated a generally
applicable workplace rule or standard (like “unit
cohesion,” App., infra, 7a), and then contend that its
decision was based on that violation, rather than on
the disability.
The Second Circuit illustrated the perverse
implications of this distinction with the example of a
terminated employee who walks with a limp that
causes him “to make a loud ‘thump’ when he takes a
step.” Teahan, 951 F.2d at 516. The Second Circuit
reasoned that the employer could not escape scrutiny
by contending that the termination was due to the
thumping sound rather than the limp. Ibid. As the
court explained, the “thump” is merely a
“symptomatic manifestation of the handicap,” and an
employment decision made on the basis of the
“thump” is no different from a decision made on the
basis of the limp. Id. at 517.
The precedent upon which the court of appeals
primarily relied below, Martinson, 104 F.3d 683, also

26
underscores the analytical emptiness of the Fourth
Circuit’s distinction between disability and disabilitycaused “misconduct.” Martinson involved an employee
who had been terminated from his position as a
salesman at a shoe store. Id. at 685. The employee
suffered from epilepsy, and the employer attributed
its decision to terminate him to the seizures he
experienced at work. Ibid. The district court held that
this was a permissible basis for the employer’s
decision, because it was tied to the “specific
attributes” of the employee’s disability, rather than
the “general disability” of epilepsy. Id. at 686. On
appeal, the Fourth Circuit rejected that distinction,
holding that it did not matter whether the employee
was terminated “because he suffered from epilepsy or
because of the ‘specific aspects’ of the disease.” Ibid.
The court reasoned that “both are disabilities and an
employer may not use either to justify discharging an
employee so long as that employee is qualified for the
job.” Ibid. In that respect, the court expressly rejected
an employer’s attempt to narrowly circumscribe the
disability laws’ protections through the use of such
arbitrarily drawn distinctions.
At the same time, however, the Martinson court
maintained “that misconduct—even misconduct
resulting from a disability—is not itself a disability,
and an employer is free to fire an employee on that
basis.” 104 F.3d at 686 n.3 (emphasis added). But the
court did not offer any meaningful basis for
distinguishing disability-caused “misconduct” from
the “specific aspects” of a disability that retained
protection under its decision. Nor did the court
explain why the employer in that case could not
convert the employee’s epileptic seizures into
unprotected “misconduct” by depicting them as

27
failures to comply with a workplace expectation that
employees will remain physically composed and
conscious during the work day.
This Court has previously rejected an attempt to
narrow the ADA’s protections through the use of a
similarly artificial distinction. In School Board of
Nassau County v. Arline, 480 U.S. 273 (1987), a
teacher suffered a relapse of tuberculosis, and the
school board fired her out of fear that she was
contagious. Id. at 276-277. The school board argued
that the teacher had been fired “not because of her
diminished physical capabilities, but because of the
threat that her relapses of tuberculosis posed to the
health of others.” Id. at 281. This Court held, however,
that this was a distinction without a difference. Id. at
282. Employers are not permitted “to seize upon the
distinction between the effects of a disease on others
and the effects of a disease on a patient and use that
distinction to justify discriminatory treatment.” Ibid.
It would be no less “unfair” (ibid.) to allow an
employer to seize upon an artificial distinction
between a disability and conduct caused by the
disability in seeking to justify an adverse employment
action.
At bottom, when a plaintiff’s so-called
“misconduct” is indisputably a manifestation of an
underlying disability, no meaningful distinction can
be drawn between the “misconduct” and the disability.
An employment decision made on the basis of such
disability-caused “misconduct” is therefore made on
the basis of disability.
None of this is to deny the potential relevance of
an employee’s or applicant’s conduct to other elements
of a discrimination claim and, ultimately, to the
disposition of such claims. The proper approach,

28
however, is to treat conduct caused by a disability as
“a factor that bears on whether an employee is
‘otherwise qualified’ for the position.” Teahan, 951
F.2d at 515-516. If an employee’s disability prevents
her from performing the “essential functions of the
job,” then the discrimination prohibition does not
apply. See, e.g., Jones v. Walgreen Co., 679 F.3d 9, 18
(1st Cir. 2012). To make that qualification
determination, courts engage in a “penetrating factual
analysis” of both the plaintiff’s disability and the
“essential functions” of her job. McMillan, 711 F.3d at
126; see also Southeastern Cmty. Coll. v. Davis, 442
U.S. 397, 406 (1979).
The court of appeals’ approach, however, “shortcircuit[s] the required analysis” of whether an
employee is qualified. Salley, 160 F.3d at 981. By
upholding adverse actions taken on the basis of
disability-caused conduct regardless of whether the
employee is otherwise qualified, the approach adopted
below improperly allows an employer to “avoid the
burden of proving that the handicap is relevant to the
job qualifications.” Teahan, 951 F.2d at 517.
That is precisely what occurred in this case. The
court of appeals assumed that petitioner was qualified
for the permanent position she sought despite any
attendance issues, App., infra, 24a, and it had “no
doubt” that those issues were caused by petitioner’s
disability. Id. at 29a. It did not require her employer
to show otherwise in order to obtain summary
judgment. Petitioner’s employer was thus excused
from having to demonstrate that set working hours
were an essential part of the position petitioner
sought, notwithstanding her “maxi flex” schedule and
years of excellent performance while working flexible
hours. Rather, the court of appeals called the

29
attendance issues “misconduct” and avoided such
thorny questions altogether. Ibid.
2. The statutory context reinforces the conclusion
that adverse action taken because of conduct caused
by disability is discrimination on the basis of
disability.
As an initial matter, the ADA is clear that the
discrimination it proscribes extends far beyond
decisions motivated by simple animus against
individuals with disabilities. To the contrary, the ADA
creates an obligation on the part of employers to
provide employees and applicants with reasonable
accommodations to known disabilities, 42 U.S.C.
§ 12112(b)(5)(A) and (B), and it prohibits employers
from using qualification standards that have a
disparate impact on individuals with disabilities
unless those standards are shown to be “job-related
for the position in question and * * * consistent with
business necessity,” id. § 12112(b)(6); see also pp. 3-4,
supra.
Thus, “[a]s a general rule, an employer may not
hold a disabled employee to precisely the same
standards of conduct as a non-disabled employee
unless such standards are job-related and consistent
with business necessity.” Den Hartog, 129 F.3d at
1086. Likewise, the fact that an employer need not
make an accommodation that would constitute an
“undue hardship” (42 U.S.C. § 12112(b)(5)(A)) or
accept behavior that poses a “direct threat” to the
health or safety of others in the workplace (id.
§ 12113(b)) “establishes that there are certain levels
of disability-caused conduct that need not be tolerated
or accommodated by employers.” Den Hartog, 129
F.3d at 1087. As a “necessary corollary,” it follows that
“there must be certain levels of disability-caused

30
conduct that have to be tolerated or accommodated.”
Ibid.
Under the approach adopted by the Fourth Circuit
below, however, decisions that are based on disabilitycaused conduct escape such scrutiny entirely. Because
such decisions are deemed not to be made on the basis
of disability, courts would have no occasion to consider
whether the conduct at issue could be accommodated
without undue hardship, or whether the conduct
poses a direct threat to others. The court of appeals’
approach would thus effectively write these provisions
out of the ADA.
The court of appeals’ approach also cannot be
squared with the provisions of the ADA that expressly
authorize employers to take adverse action based on
conduct resulting from an employee or applicant’s
disability. For instance, the statute expressly permits
employers to penalize individuals addicted to alcohol
or illegal drugs for violating general conduct
standards “even if any unsatisfactory performance or
behavior is related to the drug use or alcoholism.” 42
U.S.C. § 12114(c)(4) (emphasis added). But this
explicit exception would make no sense absent a
background rule that employment decisions based on
conduct caused by other disabilities come within the
ADA’s protections, even when that conduct violates
generally applicable rules or standards and can thus
be depicted as “misconduct.” See Den Hartog, 129 F.3d
at 1086.
3. The court of appeals’ legal error is especially
pernicious because it operates to gut federal law’s
protections for individuals with disabilities associated
with mental health.
A key element of the American Psychological
Association’s definition of “mental disorder” is a

31
“disturbance in * * * behavior.” American Psychological Ass’n, Diagnostic and Statistical Manual of
Mental Disorders 20 (5th ed. 2013). Major depressive
disorder, for example, is “characterized by discrete
episodes” that involve “clear-cut changes in affect,
cognition, and neurovegetative functions.” Id. at 155;
see also Kelly Cahill Timmons, Accommodating
Misconduct under the Americans with Disabilities Act,
57 Fla. L. Rev. 187, 208-210 (2005) (describing mental
impairments that “manifest themselves in the form of
conduct”). As the Tenth Circuit has explained,
“[m]ental illness is manifested by abnormal behavior,
and is in fact normally diagnosed on the basis of
abnormal behavior.” Den Hartog, 129 F.3d at 1087;
accord Susan Stefan, Hollow Promises: Employment
Discrimination Against People with Mental
Disabilities 154 (2002) (“Many disabilities manifest
themselves in forms of behavior or conduct, and
psychiatric disability is manifested almost completely
in this way.”).
Given the nature of mental impairments, it follows
that “permit[ting] employers carte blanche to
terminate employees with mental disabilities on the
basis of any abnormal behavior would largely nullify
the ADA’s protection of the mentally disabled.” Den
Hartog, 129 F.3d at 1087. That result would be
contrary to the disability laws’ “sweeping purpose.”
PGA Tour, Inc. v. Martin, 532 U.S. 661, 675 (2001).
No one would propose that a person who uses a
wheelchair commits “misconduct” disentitling him to
protection under the federal disability discrimination
statutes when he cannot ascend a flight of stairs to a
second-floor staff meeting. Yet the decision below
countenances precisely that result for someone whose
impairment is mental rather than physical.

32
Moreover, the Fourth Circuit’s approach invites
strategic behavior to avoid the prohibition on
disability discrimination. When faced with an
employee or applicant suffering from a disability
which manifests in undesired conduct, an employer
need only be careful to cite the individual’s conduct
rather than the underlying disability causing it. An
interpretation of the disability statutes that creates
such a loophole is demonstrably at odds both with the
statutory framework and with Congress’s intent.
C. The Question Presented Is Important, And This
Case Presents An Excellent Vehicle To Resolve
It

1. The question presented here is a recurring and
important one, as demonstrated by the many cases
cited above and numerous other decisions of the lower
courts that have grappled with the same issue. 8 The
frequency with which the issue arises is no surprise,
given the volume of federal litigation under the
disability discrimination statues. There were 10,773
ADA suits filed in district courts in 2017, making up
four percent of the entire federal civil docket that

See, e.g., Greer v. Emerson Elec. Co., 185 F.3d 917, 922 (8th
Cir. 1999); EEOC v. Amego, Inc., 110 F.3d 135, 149 (1st Cir.
1997); Harris v. Polk Cty., 103 F.3d 696, 697 (8th Cir. 1996);
Cushing v. Moore, 970 F.2d 1103, 1109 (2d Cir. 1992); Walton v.
Spherion Staffing LLC, 152 F. Supp. 3d 403, 411 (E.D. Pa. 2015);
Willis v. Norristown Area Sch. Dist., 2 F. Supp. 3d 597, 605 (E.D.
Pa. 2014); Walz v. Ameriprise Fin., Inc., 22 F. Supp. 3d 981, 986987 (D. Minn. 2014), aff ’d on other grounds, 779 F.3d 824 (8th
Cir. 2015); Valentine v. Standard & Poor’s, 50 F. Supp. 2d 262,
290 (S.D.N.Y. 1999); Hogarth v. Thornburgh, 833 F. Supp. 1077,
1083 (S.D.N.Y. 1993); Guerriero v. Schultz, 557 F. Supp. 511, 513
(D.D.C. 1983).
8

33
year. 9 More than twice as many ADA claims are filed
with the EEOC each year. 10
In many such cases, of course, the employer will
defend on the ground that the plaintiff does not have
a disability, as defined by statute, or that the decision
in question was entirely unrelated to the plaintiff’s
claimed impairment. But a meaningful number of
these cases mirror this one, where an employer seeks
to defend a challenged employment decision by
pointing to so-called “misconduct” caused by the
plaintiff’s disability. The statutory question
presented here therefore arises with regularity.
More broadly, the proper scope of the federal
disability discrimination statutes is an issue that
affects vast swaths of the American population. By
one estimate, one in four Americans—more than 61
million people—have a disability. Catherine A. Okoro,
et al., Prevalence of Disabilities and Health Care
Access by Disability Status and Type Among Adults —
United States, 2016, 67 Morbidity and Mortality
Weekly Report 882, 882-887 (2018). Almost 17 percent
of adults of prime employment age (18 to 44) are
considered disabled. Ibid. Moreover, mental
disabilities such as depression and anxiety make up
between eight and nine percent of all disabilities. 11
Studies also indicate that this number is increasing—
9 United States Courts, Just the Facts: Americans with
Disabilities Act (July 12, 2018), https://www.uscourts.gov/
news/2018/07/12/just-facts-americans-disabilities-act.

EEOC, Americans with Disabilities Act of 1990 (ADA)
Charges FY 1997–FY 2018, https://www.eeoc.gov/eeoc/statistics/
enforcement/ada-charges.cfm.
10

Council for Disability Awareness, Chances of Disability
(Mar. 28, 2018), https://disabilitycanhappen.org/disabilitystatistic/.
11

34
for instance, the rate of young adults experiencing
serious psychological distress rose 71 percent from
2008 to 2017. 12
2. This case presents a particularly favorable
vehicle for addressing the question presented. In the
decision below, the panel majority explicitly assumed
that petitioner’s depression constituted a disability
and that she was qualified for the position she sought.
App., infra, 24a-25a. The panel majority likewise
stated that it had “no doubt that [petitioner’s] struggle
with depression was the cause of her attendance
issues.” Id. at 29a. Thus, as the case arrives before
this Court, there is no factual dispute as to any of
those critical elements of petitioner’s claim. The only
ground for the panel majority’s decision was its
conclusion that, because petitioner’s attendance
issues constituted “misconduct,” they were distinct
from her disability and thus afforded a legitimate,
non-discriminatory basis for ODNI’s decision not to
hire her. Ibid. This case therefore cleanly presents the
legal issue that has divided the courts of appeals.
CONCLUSION

The petition for a writ of certiorari should be
granted.

American Psychological Ass’n, Mental Health Issues
Increased Significantly Over Last Decade (Mar. 14, 2019),
https://www.apa.org/news/press/releases/2019/03/mentalhealth-adults.
12

35
Respectfully submitted.
TIMOTHY BOSSON

BOSSON LEGAL GROUP, PC
823 South King Street
Leesburg, VA 20175
DANIEL R. ORTIZ
UNIVERSITY OF VIRGINIA
SCHOOL OF LAW SUPREME
COURT LITIGATION CLINIC

580 Massie Road
Charlottesville, VA 22903
OCTOBER 2019

MARK T. STANCIL

Counsel of Record

MATTHEW M. MADDEN
DONALD BURKE
ROBBINS, RUSSELL, ENGLERT,
ORSECK, UNTEREINER &
SAUBER LLP

2000 K Street, NW
Washington, DC 20006
(202) 775-4500
mstancil@robbinsrussell.com

APPENDIX A
PUBLISHED

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 17-1943

HANNAH P.,
Plaintiff - Appellant,
v.
DANIEL COATS, Director of the Office of The
Director of National Intelligence
McLean, VA,
Defendant - Appellee,
and
MARK EWING, in his personal capacity McLean,
VA,
Defendant.

Appeal from the United States District Court for the
Eastern District of Virginia, at Alexandria. Claude
(1a)

2a
M. Hilton, Senior District Judge.
CMH-IDD)

(1:16-cv-01030-

Argued: October 31, 2018
Decided: February 19, 2019
Before GREGORY, Chief Judge, THACKER and
QUATTLEBAUM, Circuit Judges.
Affirmed in part, vacated in part, and remanded by
published opinion. Judge Thacker wrote the opinion,
in which Judge Quattlebaum joined. Chief Judge
Gregory wrote a separate opinion concurring in part
and dissenting in part.
Timothy Bosson, BOSSON LEGAL
GROUP, Fairfax, Virginia, for Appellant. Caroline D.
Lopez, UNITED STATES DEPARTMENT OF
JUSTICE, Washington, D.C., for Appellee. ON
BRIEF: Chad A. Readler, Principal Deputy Assistant
Attorney General, Marleigh D. Dover, Civil Division,
UNITED STATES DEPARTMENT OF JUSTICE,
Washington, D.C.; Dana J. Boente, United States
Attorney, OFFICE OF THE UNITED STATES
ATTORNEY, Alexandria, Virginia, for Appellee.
ARGUED:

3a
THACKER, Circuit Judge:
Appellant Hannah P. 1 (“Hannah”), a former
employee of the Office of the Director of National
Intelligence (“Appellee”), asserts that Appellee
discriminated against her pursuant to the
Rehabilitation Act of 1973 (“Rehabilitation Act”), 29
U.S.C. § 701, et seq., and violated the Family and
Medical Leave Act of 1993 (“FMLA”), 29 U.S.C.
§ 2601, et seq., by not hiring her for a permanent
position.
The district court granted summary
judgment in Appellee’s favor as to all claims.
For the reasons explained below, we affirm the
district court’s judgment as to the Rehabilitation Act
and FMLA retaliation claims. However, because a
genuine issue of material fact remains as to whether
Hannah provided notice of her disability and interest
in FMLA leave sufficient to trigger Appellee’s duty to
inquire, we hold that summary judgment as to
Hannah’s FMLA interference claim was not
warranted. Accordingly, we vacate that part of the
district court’s judgment and remand Hannah’s
FMLA interference claim for further proceedings.
I.
A.
In March 2011, Appellee hired Hannah for a fiveyear term as an operations analyst. In that position,
Hannah participated in “long-term, in-depth studies
into issues that had particular budgetary importance

Pursuant to a protective order, Hannah is identified by her first
name and last initial.

1

4a
for the [c]ommunity.” J.A. 18. 2 Hannah generally
received glowing reviews from her supervisors. See,
e.g., id. at 412 (describing Hannah’s performance
prior to 2015 as “outstanding” and noting her
“energy/drive,
technical
competence,
superb
communication and networking skills, and superior
analytic tradecraft”); id. at 350 (describing Hannah as
“a high-performing employee”); id. at 391–410
(describing, repeatedly, various elements of Hannah’s
performance as “excellent” and “outstanding”).
B.
A few months after she was hired, Hannah was
diagnosed with depression. Hannah immediately
informed at least two of her supervisors of her
diagnosis, but she did not request any
accommodations at that time. Hannah treated her
depression by seeing a counselor and a psychiatrist
and by taking prescribed medication.
In November 2013, Hannah was assigned to
coordinate the responses of the National Intelligence
Director and Principal Deputy Director to Edward
Snowden’s unauthorized disclosures. 3 This role was
“high stress” and required “frequent long hours and
weekend work coupled with meeting tight deadlines
2 Citations to the “J.A.” refer to the Joint Appendix filed by the
parties in this appeal.

In 2013, National Security Agency subcontractor Edward
Snowden leaked “the biggest cache of top-secret documents in
history,” which revealed numerous global surveillance programs
run by the United States government. Ewen MacAskill & Alex
Hern, Edward Snowden: ‘The People Are Still Powerless, but
Now
They’re
Aware,’
Guardian
(June
4,
2018),
https://www.theguardian.com/us-news/2018/jun/04/edward
snowden-people-still-powerless-but-aware.
3

5a
and dealing with a demanding [National Security
Council] customer.” J.A. 412. In fact, to accommodate
the schedule change that this role required, Appellee
moved Hannah to a “maxi flex” schedule. Id. at 350–
51. A “maxi flex” schedule requires an analyst to work
a certain number of hours -- 80 hours over a two-week
period -- but does not dictate the exact hours that the
analyst must work per day. For Hannah, that meant
starting and ending work later than traditional
business hours.
The Snowden assignment lasted 18 months and
completed in January 2015. However, Hannah
continued her atypical working hours beyond the
completion of the Snowden assignment. Hannah’s
supervisor “was expecting” that when the Snowden
assignment ended, Hannah’s hours “might become
more normal.” J.A. 353. However, for the first few
months, he did not communicate with Hannah about
returning to normal business hours. Rather, he
explained, he was “primarily concerned about
establishing what [Hannah’s] next task was going to
be.” Id.
By March 2015, Hannah’s co-workers perceived
her schedule to be “erratic.” J.A. 413. Hannah arrived
to work well after normal business hours and racked
up numerous unplanned absences. On some occasions
Hannah was “extremely late,” sometimes arriving
after 2 PM. Id. On other occasions Hannah was
unreachable for hours, often missing and failing to
return “repeated phone calls to her cell and home
phone.” Id. When Hannah’s supervisors were able to
reach her, they noted that she seemed “either
lethargic or almost unconcerned” about her lateness
and absences. Id. They also noted that her demeanor

6a
was “sad, very flat, and almost trance like.” Id.
Around that time, Hannah informed her supervisors
that she “had a recent change in medication.” Id.
C.
1.
Appellee made some accommodations for Hannah
following the Snowden assignment. First, after
consulting with Hannah in January 2015, Appellee
lightened Hannah’s workload “to give her a chance to
decompress” from the stress of the Snowden
assignment. J.A. 413 (internal quotation marks
omitted). Second, multiple of Hannah’s supervisors
had “informal counseling sessions” with her “to
discuss any issues that she might be having” and to
“urge her” to notify them if she was going to be late or
absent. Id.
On March 19, 2015, one of Hannah’s supervisors
met with Hannah directly to address her attendance
issues.
Together, Hannah and her supervisors
developed a plan to reconcile Hannah’s depression
with Appellee’s staffing needs. According to that plan,
Hannah was to arrive to work by 10 AM. If she was
going to be absent or later than 10 AM, Hannah was
to contact one of her supervisors in advance. If
Hannah had not arrived at work or contacted a
supervisor by 11 AM, a supervisor would call her to
determine when she would arrive.
But, Hannah did not follow the plan. For
example, the very next day after she and her
supervisors developed the plan, Hannah emailed her
supervisors at 11:05 AM to inform them that she
would be arriving after 12 PM. Similarly, on March
31, Hannah emailed her supervisors at 11:56 AM to

7a
inform them that she would not be coming into work
at all that day. On April 1, after Hannah had not
arrived to work or contacted her supervisors,
Hannah’s second-level supervisor called her at 12:30
PM, at which time Hannah reported “being unable to
just get going.” J.A. 413. Later that day, when
Hannah finally arrived to work, her supervisor
informed her that the plan they created was not
working.
At that same time, her supervisor revised the
plan to require Hannah to arrive at work by 10 AM or
report to her supervisors in advance if she was going
to be late or absent. This “put the onus” on Hannah
to contact her supervisors, rather than asking her
supervisors to contact her if she had not arrived at
work by 11 AM. J.A. 90. Hannah failed to follow this
modified plan as well. In fact, she failed to comply on
April 2 and April 3, the two days following the meeting
where the plan was modified.
According to Appellee, Hannah’s timeliness and
attendance issues impacted her performance, the
performance of her peers, and the performance of her
supervisors.
Per Appellee, Hannah’s “erratic”
schedule was “noted by her teammates” and affected
“unit cohesion.” J.A. 413. Hannah’s failure to report
her tardiness and absences as well as her
unresponsiveness required her management team to
spend “significant time and energy” tracking her
down.
Id.
Additionally, because of Hannah’s
absences, Hannah’s supervisors were often forced to
assign work that might have been assigned to Hannah
to other analysts.

8a
2.
On April 9, 2015, just three weeks after the initial
work plan was developed to attempt to accommodate
Hannah’s needs, Hannah again met with her
supervisors. At this meeting, Hannah’s supervisors
informed her that they were referring her to the
Employee Assistance Program (“EAP”). EAP is a
voluntary counseling service for employees and their
family members that provides “free, confidential,
short-term mental health[,] financial, and addictions
counseling and referral to cleared community
providers.” J.A. 132. Hannah’s supervisors made an
EAP appointment for her for the following day,
Friday, April 10. At that time, Hannah explained to
her supervisors that her psychiatrist recommended
she take four weeks of medical leave. But, Hannah’s
supervisors insisted that she would need to meet with
EAP before they could approve her request for medical
leave.
On the next business day following Hannah’s
EAP session -- Monday, April 13 -- Hannah’s
supervisor told Hannah he was willing to authorize
her to take medical leave. However, at that point,
Hannah informed her supervisor that her leave
request was “on hold,” without further explanation.
J.A. 170, 178.
On April 16, Hannah’s supervisor noted in an
email that he had an “extended” 40 minute discussion
with Hannah’s EAP psychologist. J.A. 604. Hannah
alleges that the EAP psychologist “shared with
[Hannah’s supervisor] details of what Hannah had
revealed in confidence at the EAP sessions.”
Appellant’s Br. 17. Specifically, Hannah alleges that
the EAP psychologist told her supervisor that Hannah

9a
was concerned about Appellee’s records retention
policies, and that Hannah’s “difficulties in getting to
work were the result of a lack of motivation, not
related to depression.” J.A. 540.
3.
Despite Hannah’s participation in EAP, her
attendance problems persisted. For example, on April
13, 2015, Hannah emailed her supervisors at 10:58
AM to inform them that she would arrive to work by
11:30 AM. Similarly, on April 14, Hannah emailed
her supervisors at 11:08 AM to inform them that she
would arrive to work by 12 PM. That day, Hannah’s
supervisors were not able to confirm her arrival to
work until after 1:50 PM.
A week after advising her supervisors that her
leave request was “on hold,” on April 21, Hannah
renewed her request for four weeks of medical leave.
Hannah’s supervisors approved that request on May
5. They required her to use her annual leave to
account for four-fifths of the four week leave period,
and allowed her one day of sick leave per week to
make up the rest. Hannah began her leave the day it
was approved.
On May 4, the day before Hannah began her
leave of absence, Hannah’s supervisors gave her a
letter of expectations. That letter confirmed the
revised attendance and reporting plan. This plan
required Hannah to arrive to work by 10 AM or report
to her supervisors by 9:30 AM if she was going to be
late or absent.
4.
During this time, Hannah applied for three
permanent positions within the Office of the Director

10a
of National Intelligence. In February 2015, Hannah
interviewed for two permanent positions for which she
was not selected. Shortly before taking her leave of
absence in May 2015, Hannah applied for a third fulltime position, the Program Mission Manager Cyber
Position (“Cyber position”). She was interviewed for
the Cyber position on June 9, eight days after she
returned from leave, and the interview panel
recommended her for the position. Her application
was then forwarded to Appellee’s Chief Management
Officer, Mark Ewing, who recommended that Hannah
not be selected for the position “at this time,” stating
that Hannah’s “recent performance is not consistent
with a potentially good employee.” J.A. 232. Hannah
was informed that her application had been rejected
in early July 2015, and she did not apply for any other
positions. Hannah completed her five-year term with
Appellee in March 2016.
D.
Hannah exhausted her administrative remedies
and filed this lawsuit on August 12, 2016. She alleged
that Appellee violated the Rehabilitation Act in five
ways: (1) failing to accommodate her mental illness;
(2) creating a hostile work environment; (3) requiring
her to undergo a medical examination; (4) disclosing
her confidential medical information; and (5) refusing
to hire her for the Cyber position. Additionally,
Hannah alleged that Appellee violated the FMLA in
two ways: (1) by interfering with her ability to take
medical leave; and (2) by retaliating against her when
she took medical leave. After the close of discovery,
Appellee moved for summary judgment on all counts.
The district court granted that motion on July 27,
2017. Hannah filed this timely notice of appeal

11a
challenging the district court’s decisions on all but the
hostile work environment claim.
II.
We review a district court’s decision to grant
summary judgment de novo. See Vannoy v. Fed.
Reserve Bank of Richmond, 827 F.3d 296, 300 (4th Cir.
2016). In doing so, this court applies the same
standard as the district court. See id. That standard
requires the court to grant summary judgment where
“there is no genuine dispute as to any material fact
and the movant is entitled to judgment as a matter of
law.” Fed. R. Civ. P. 56(a); see also Vannoy, 827 F.3d
at 300. We construe the evidence in the light most
favorable to Hannah, the nonmovant, and we draw all
reasonable inferences in her favor. See Vannoy, 827
F.3d at 300.
III.
Hannah asserts that Appellee violated the
Rehabilitation Act by failing to accommodate her
depression, wrongfully requiring her to undergo a
medical examination, unlawfully disclosing her
confidential medical information, and refusing to hire
her for the Cyber position. Additionally, Hannah
asserts that Appellee interfered with and retaliated
against her for using leave under the FMLA. We will
address each of these claims in turn.
A.
Rehabilitation Act Claims
The Rehabilitation Act prohibits federal agencies
from discriminating against its employees on the
basis of disability. See 29 U.S.C. § 794. For the
reasons explained below, Hannah failed to satisfy her

12a
burden on each of her claims under the Rehabilitation
Act. Specifically, Hannah failed to: (1) demonstrate
that Appellee failed to accommodate her depression;
(2) demonstrate that Appellee’s EAP amounted to a
required medical examination; (3) demonstrate that
Appellee disclosed or misused confidential medical
information; and (4) rebut Appellee’s legitimate,
nondiscriminatory reason for rejecting her application
for a permanent position.
1.
Reasonable Accommodation
Turning first to Hannah’s claim that Appellee
failed to accommodate her depression, the district
court correctly concluded that Hannah did not
establish a prima facie case because Hannah failed to
demonstrate that Appellee refused to make a
reasonable accommodation.
To establish a prima facie claim of failure to
accommodate under the Rehabilitation Act, a plaintiff
must demonstrate that (1) she was a qualified person
with a disability; (2) the employer had notice of the
disability; (3) the plaintiff could perform the essential
functions of the position with a reasonable
accommodation; and (4) the employer nonetheless
refused to make the accommodation. See Reyazuddin
v. Montgomery Cty., 789 F.3d 407, 414 (4th Cir. 2015).
The district court concluded that Hannah could not
establish the fourth element -- specifically, the district
court determined that Appellee provided Hannah
with at least two reasonable accommodations. And,
on appeal, the parties dispute only the fourth element.
Here, as detailed above, Appellee provided
Hannah with a reasonable accommodation. When

13a
Hannah failed to follow that plan, Hannah’s
supervisors attempted a new accommodation -referring Hannah to EAP. Yet, despite Hannah’s
participation in EAP, her attendance problems
persisted.
Hannah argues that Appellee’s accommodations
were not reasonable for two reasons. First, she claims
that the accommodation was improperly rescinded
when her supervisors concluded that the first plan
was not working.
Hannah asserts that the
Rehabilitation Act requires a collaborative process.
Hannah argues that rather than collaborating
with her to identify a workable accommodation,
Appellee unilaterally decided that the first plan was
not working, then unilaterally decided that Hannah
should participate in EAP counseling instead.
Although employers have a duty to engage with their
employees in an “interactive process to identify a
reasonable accommodation,” Wilson v. Dollar Gen.
Corp., 717 F.3d 337, 346 (4th Cir. 2013), the employer
“has the ultimate discretion to choose between
effective accommodations.” Reyazuddin, 789 F.3d at
415–16 (citing Hankins v. Gap, Inc., 84 F.3d 797, 800
(6th Cir. 1996)). Nonetheless, even under Hannah’s
view of the record, Appellee did, in fact, collaborate
with Hannah in establishing the first accommodation
and only acted unilaterally when that accommodation
did not work.
Second, Hannah claims that a reasonable
accommodation that she requested -- a leave of
absence -- was improperly delayed. Hannah posits
that she “suffered immense emotional stress during
this one month lapse of [Appellee’s] compliance with
the law.” Appellant’s Br. 37. This argument is

14a
without merit and is not supported by the record, even
when viewed in the light most favorable to Hannah.
Hannah first requested the leave of absence on April
9, 2015. Then, on April 13 -- just two business days
later -- Hannah withdrew her request without
explanation, telling her supervisor that her leave
request was “on hold.” J.A. 170, 178. Hannah then
renewed her request for leave on April 21, and her
request was approved on May 5. Thus, there was no
“one month lapse,” since Hannah’s request was “on
hold” for nine days of that time.
During the remaining gap between Hannah’s
request for leave and Appellee’s approval of that
request, Appellee referred Hannah to its counseling
service. The Rehabilitation Act does not require an
employer to provide the exact accommodation that an
employee requests. See Reyazuddin, 789 F.3d at 415
(“An employer may reasonably accommodate an
employee without providing the exact accommodation
that the employee requested.”). Further, the record
demonstrates that Hannah’s supervisors were
actively considering her request for leave during that
time, and they did ultimately approve it less than a
month after she first requested leave.
For these reasons, granting summary judgment
to Appellee on Hannah’s reasonable accommodation
claim was proper.
2.
Required Medical Examination
Under the Rehabilitation Act, an employer “shall
not require a medical examination and shall not make
inquiries of an employee as to whether such employee
is an individual with a disability or as to the nature or

15a
severity of the disability, unless such examination or
inquiry is shown to be job-related and consistent with
business necessity.” 42 U.S.C. § 12112(d)(4)(A).
a.
Examination of a Job Applicant
As an initial matter, Hannah’s arguments related
to pre-employment medical examinations under the
Rehabilitation Act 4 miss the mark because Hannah
was a current employee, not a job applicant. Although
Appellee knew Hannah was considering applying for
permanent positions with Appellee at the time she
was referred to EAP, she had not yet done so. The
evidence is clear that Appellee referred Hannah to
EAP in lieu of disciplining her for her attendance
issues in her then-current position, rather than as a
pre-employment medical examination. Moreover, the
fact that Hannah’s attendance issues may have been
related to her stress and frustration surrounding
obtaining permanent employment with Appellee does
not transform her EAP referral into a preemployment
medical examination.
b.
Examination of a Current Employee
Further, Hannah failed to demonstrate, much
less create a genuine issue of material fact, that EAP
constituted a prohibited medical examination of a
current employee. We note that EAP’s policies make
4 Subject to certain exceptions, an employer “shall not conduct a
medical examination or make inquiries of a job applicant as to
whether such applicant is an individual with a disability or as to
the nature or severity of such disability.”
42 U.S.C.
§ 12112(d)(2)(A).

16a
clear that EAP is intended to be used as a voluntary
counseling service, and not as a mandatory medical
examination that would violate the Rehabilitation
Act.
See J.A. 130 (“[U]tilizing EAP is always
voluntary and therefore the employee has the right to
decline to attend treatment, even if managementreferred.”). Additionally, Hannah’s EAP counselor
repeatedly stated that she did not conduct a medical
examination:
I did not conduct a medical examination of
[Hannah], and I did not conduct a mental health
evaluation or diagnostic assessment because a)
[Hannah] informed me she was already in
treatment and b) . . . it is not in EAP’s purview to
conduct a medical evaluation.
I did not
administer any medical or mental health tests or
diagnostic assessment tools for the same reason.
I was [n]ot tasked to diagnose or provide a second
opinion; my role was to facilitate communication
between [Hannah] and Management to resolve
the problem presented in the Management
Referral -- namely, improving attendance and
notifying management when not attending work.
Id. at 188 (emphasis omitted).
However, even if EAP constituted a mandatory
medical examination under the facts of this case,
summary judgment to Appellee was still appropriate
on this claim because Hannah’s referral to EAP was
“job-related and consistent with business necessity.”
42 U.S.C. § 12112(d)(4)(A). As we have stated,
“whether a mental examination was ‘job-related and
consistent with business necessity’ is an objective
inquiry.” Pence v. Tenneco Auto. Operating Co., 169
F. App’x 808, 812 (4th Cir. 2006). “We therefore do

17a
not resolve any dispute about what [Appellee’s]
subjective motivations were for having [Hannah]
examined by the EAP.” Id. An employer’s request for
a medical examination is job-related and consistent
with business necessity when: “(1) the employee
requests an accommodation; (2) the employee’s ability
to perform the essential functions of the job is
impaired; or (3) the employee poses a direct threat to
himself or others.” Kroll v. White Lake Ambulance
Auth., 763 F.3d 619, 623 (6th Cir. 2014).
Here, the evidence, even when viewed in the light
most favorable to Hannah, supports granting
summary judgment because Appellee had a
reasonable belief that Hannah’s ability to perform the
essential functions of her job was impaired by her
repeated issues with attendance and timely reporting.
Hannah attempts to refute this by asserting that her
job performance was excellent, but job performance
alone does not create a genuine issue of material fact.
Attendance was also an essential function of
Hannah’s job, one the record amply demonstrates she
was unable to fulfill when Appellee referred her to
EAP. As we have stated:
In addition to possessing the skills necessary to
perform the job in question, an employee must be
willing and able to demonstrate these skills by
coming to work on a regular basis. Except in the
unusual case where an employee can effectively
perform all work related duties at home, an
employee “who does not come to work cannot
perform any of his job functions, essential or
otherwise.” Therefore, a regular and reliable
level of attendance is a necessary element of most
jobs.

18a
Tyndall v. Nat’l Educ. Ctrs., Inc. of Cal., 31 F.3d 209,
213 (4th Cir. 1994) (quoting Wimbley v. Bolger, 642 F.
Supp. 481, 485 (W.D. Tenn. 1986), aff’d, 831 F.2d 298
(6th Cir. 1987)) (emphasis in original); see also
Denman v. Davey Tree Expert Co., 266 F. App’x 377,
380 (6th Cir. 2007) (“Job performance is separate from
the ability to show up for work, an essential function
of [Hannah’s] position.”).
Accordingly, Appellee did not violate the
Rehabilitation Act by referring Hannah to EAP, and
the district court properly granted summary
judgment to Appellee on this claim.
3.
Confidential Medical Information
Under the Rehabilitation Act, an employer may
“conduct voluntary medical examinations, including
voluntary medical histories, which are part of an
employee health program” and may “make inquiries
into the ability of an employee to perform job-related
functions.”
42 U.S.C. § 12112(d)(4)(B).
Any
“information obtained regarding the medical
condition or history of the applicant” -- that is, medical
information -- must be “collected and maintained on
separate forms and in separate medical files and
[must be] treated as a confidential medical record.”
Id. § 12112(d)(3)(B); see also id. § 12112(d)(4)(C).
Hannah alleges two separate Rehabilitation Act
violations regarding her medical information: first,
that Hannah’s supervisors wrongfully sought and
disclosed confidential medical information elicited
from Hannah, and second, that the EAP psychologist
wrongfully disclosed confidential medical information
gathered from the EAP session to Hannah’s

19a
supervisors. In both instances, the district court
correctly determined that Hannah failed to
demonstrate that Appellee violated the Rehabilitation
Act.
a.
Disclosures by Supervisors
Hannah asserts that her supervisors disclosed
her confidential medical information by writing in her
EAP referral memo, “[e]arly in her tenure . . . and
reaffirmed recently, [Hannah] informed us that she
was meeting with a psychiatrist and counselor and
taking medication for depression.” J.A. 413. Notably,
Hannah voluntarily disclosed her depression
diagnosis to her supervisors. The Rehabilitation Act
does not protect information shared voluntarily. See
Reynolds v. Am. Nat’l Red Cross, 701 F.3d 143, 155
(4th Cir. 2012) (finding the district court properly
granted summary judgment on a confidentiality claim
brought under the Rehabilitation Act because the
record “clearly show[ed]” that the appellant “disclosed
his medical condition voluntarily”). Indeed, Hannah
voluntarily told at least four of her supervisors that
she had been diagnosed with depression. See J.A. 179
(Hannah’s interrogatory responses) (“I disclosed my
diagnosis of depression to my supervisors Kelly G. in
summer 2011, Ann W. in fall 2014; Art Z. in March
2015, and Roy P. in March 2015.”).
Hannah argues that these disclosures were not
voluntary because they were made in response to
inquiries about her disability. But the evidence does
not support or create a genuine issue of fact about that
argument. The record indicates that only the March
2015 disclosure was made in response to an inquiry,

20a
and that inquiry was not medical -- it was about her
attendance.
See J.A. 23 (Hannah’s deposition
testimony)
(“[H]e
was
concerned
about
unpredictability in my schedule. . . . I told him at that
time I had depression.”).
Hannah asserts that this inquiry about her
attendance was de facto an inquiry into her
depression because (according to Hannah) the
inquiring supervisor knew she was depressed and
knew her attendance issues were linked to her
depression. Hannah cites only out-of-circuit cases for
the proposition that asking a question “likely to elicit”
information about a disability amounts to a medical
inquiry. See Harrison v. Benchmark Elecs. Huntsville,
Inc., 593 F.3d 1206, 1216 (11th Cir. 2010) (concluding
that whether an inquiry following a failed drug test
was likely to elicit information about a disability in
violation of the Americans with Disabilities Act
(“ADA”) 5 presented a question of fact for a jury to
resolve); Fleming v. State Univ. of N.Y., 502 F. Supp.
2d 324, 338 (E.D.N.Y. 2007) (concluding the plaintiff
pled facts sufficient to state a claim for failure to
confidentially maintain medical information under
the ADA where the plaintiff alleged that his
disclosure of his sickle cell anemia was not voluntary
because his supervisor called him while he was in the
hospital and asked him why he was there).
First, the record does not support Hannah’s
argument that the supervisor in question knew about
Hannah’s depression before she disclosed it to him.
“To the extent possible, we construe the ADA and
Rehabilitation Act to impose similar requirements.” Halpern v.
Wake Forest Univ. Health Scis., 669 F.3d 454, 461 (4th Cir. 2012).

5

21a
Hannah points to the supervisor’s statement that
when he spoke to Hannah on the phone before
confronting her about her attendance, “she didn’t
sound well on the other end of the phone.” J.A. 466.
Hannah also points to her supervisor’s statement that
Hannah’s “demeanor [wa]s sad, very flat, and almost
trance like.” Id. at 413. This is not enough to create
a genuine issue of material fact as to whether the
inquiring supervisor knew Hannah had been
medically diagnosed with clinical depression, or
whether by asking about her attendance, the
supervisor was fishing for medical information about
Hannah’s illness.
Second, even if Hannah’s supervisor had an
inkling that Hannah may have had depression, this is
not evidence that he knew asking about her repeated
absences and tardiness -- indisputably bad work
behavior -- would elicit medical information related to
her depression. Indeed, Hannah’s absences could
have been the result of a world of other, nonmedical
possibilities, such as transportation issues or
oversleeping. Adopting Hannah’s argument would
require us to find that where an employer might know
that a particular bad work behavior is connected to a
medical condition, the employer cannot inquire into
the behavior without running afoul of the ADA and
Rehabilitation Act’s prohibition on medical inquiries.
We have held expressly the opposite: “[T]he ADA does
not require an employer to simply ignore an
employee’s blatant and persistent misconduct, even
where that behavior is potentially tied to a medical
condition.” Vannoy v. Fed. Reserve Bank of Richmond,
827 F.3d 296, 305 (4th Cir. 2016) (citing Jones v. Am.
Postal Workers Union, 192 F.3d 417, 429 (4th Cir.
1999) (holding the ADA does not “require an employer

22a
to ignore such egregious misconduct by one of its
employees, even if the misconduct was caused by the
employee’s disability”)).
b.
Disclosures by EAP Psychologist
Hannah also argues that, in addition to her
supervisors disclosing her depression diagnosis
internally, the EAP psychologist disclosed “additional,
unique information from what Hannah had already
told her supervisors.” Appellant’s Br. 51. Specifically,
Hannah alleges that the EAP psychologist told her
supervisor that Hannah was concerned about
Appellee’s records retention policies, and that
Hannah’s “difficulties in getting to work were the
result of a lack of motivation, not related to
depression.” J.A. 540.
Perhaps that is true. The record does indicate
that the EAP psychologist shared some information
with Hannah’s supervisors and maybe it was unique
information.
See J.A. 192 (EAP psychologist
statement) (noting that the psychologist provided
Hannah’s supervisors updates regarding Hannah’s
“EAP attendance” and “cooperation and progress
toward resolving the referral issues”). But there is no
evidence that the EAP psychologist shared medical
information. To the contrary, the EAP psychologist
insisted, again and again, that she did not share any
confidential medical information. See id. at 190
(noting that the psychologist, who is not a doctor, “did
not disclose any confidential medical information” to
anyone). Of note, Hannah did not point to any
evidence in the record contradicting the psychologist’s
assertions.

23a
Therefore, the information shared by the EAP
psychologist did not trigger the Rehabilitation Act’s
confidentiality protections because the record
indicates that the EAP psychologist shared only
nonmedical information.
c.
Non-Reliance on Medical Information
Finally, even if either Hannah’s supervisors or
the EAP psychologist disclosed Hannah’s medical
information, Appellee still did not violate the
Rehabilitation Act because Appellee did not rely on
Hannah’s depression diagnosis or any other medical
information in deciding not to hire Hannah for the
Cyber position. Rather, the record overwhelmingly
indicates that Appellee’s decision was based on
Hannah’s attendance issues. Accordingly, Hannah
has not demonstrated that Appellee violated the
Rehabilitation Act by disclosing or misusing
confidential medical information.
4.
Discrimination
Rehabilitation Act claims for discrimination are
reviewed under the McDonnell Douglas burdenshifting framework. See Laber v. Harvey, 438 F.3d
404, 430 (4th Cir. 2006) (citing McDonnell Douglas
Corp. v. Green, 411 U.S. 792, 802 (1973)); Perry v.
Comput. Scis. Corp., 429 F. App’x 218, 219–20 (4th
Cir. 2011). Under that framework, Hannah has the
initial burden of establishing a prima facie case of
discrimination. See Perry, 429 F. App’x at 220. To
establish this prima facie case, Hannah must show
that: (1) she is disabled; (2) she was otherwise
qualified for the position; and (3) she suffered an

24a
adverse employment action solely on the basis of her
disability. See id. (citing Constantine v. Rectors &
Visitors of George Mason Univ., 411 F.3d 474, 498 (4th
Cir. 2005)).
If Hannah establishes a prima facie case, the
burden shifts to Appellee to provide a legitimate,
nondiscriminatory reason for its conduct. See Perry,
429 F. App’x at 220. If Appellee provides such a
reason, Hannah “bears the ultimate burden of
persuasion” and “must show by a preponderance of
the evidence that the proffered reason was a pretext
for discrimination.” Id.
a.
Establishing Pretext
Even assuming that Hannah established a prima
facie case of discrimination (which Appellee disputes),
she cannot succeed on her claim that Appellee
discriminated against her by not hiring her for a
permanent position because she did not sufficiently
rebut Appellee’s proffered reason for rejecting her
application, as required under the final step of the
McDonnell Douglas burden-shifting framework. See
Perry, 429 F. App’x at 220.
Appellee presented evidence demonstrating that
Hannah’s perpetual issues with attendance,
timeliness, and reporting absences to her superiors
were the bases of its decision not to hire her for the
permanent position.
Attempting to expose that
explanation as a ruse, Hannah pointed to a purported
inconsistency between the sworn statement that
Mark Ewing provided during the Equal Employment
Opportunity Commission (“EEOC”) investigation of
Hannah’s case and an email he sent more than a year

25a
earlier. In the sworn statement, signed on April 26,
2016, 6 Ewing asserts he “had no knowledge of
[Hannah’s] disability.” J.A. 650. But in the email,
sent on June 30, 2015, Ewing references two memos
that he received from Hannah’s supervisors, both of
which note Hannah’s depression. See id. at 413 (April
9, 2015 memo) (“Early in her tenure . . . and
reaffirmed recently, [Hannah] informed us that she
was meeting with a psychiatrist and counselor and
taking medication for depression.”); id. at 606 (April
23, 2015 memo) (“While . . . medical considerations
(i.e., depression and/or ADD) do make this situation
worse, these factors are under her control based upon
treatment plans with her psychologist and psychiatric
care providers.”). Underscoring the significance of
this inconsistency, Hannah argues, is the fact that
Ewing did not provide the June 30, 2015 email to the
EEOC.
Hannah argues that the inconsistency,
coupled with Ewing’s failure to disclose the email
evidencing the inconsistency, illustrates “clear
pretext.” Appellant’s Br. 27.
Despite Hannah’s arguments to the contrary, this
apparent discrepancy does not create a genuine issue
of material fact that Appellee’s proffered reason for
rejecting Hannah’s application is pretextual. First,
nothing in the record indicates that Ewing had firsthand knowledge of Hannah’s disability. Although the
memos mention that Hannah self-reported that she
had depression, the second memo also describes
Hannah’s depression as “under her control.” J.A. 606.
Indeed, Ewing’s email suggests that he did not know
6 The excerpt of the statement that is included in the J.A. does
not include the date. This date comes from Hannah’s brief. See
Appellant’s Br. 26.

26a
that Hannah had an ongoing disability. See J.A. 635
(“I am informed that EAP concluded that [Hannah]
does not have a medical problem, rather she is a
disciplinary problem.”).
More
significantly,
Hannah’s
asserted
contradiction between Ewing’s EEOC statements and
his June 30, 2015 email do not create a genuine issue
of material fact about pretext because Ewing’s email
and the memos written by Hannah’s supervisors focus
on Hannah’s attendance problems, not on her
disability. See J.A. 413 (April 9, 2015 memo) (noting
that “[Hannah’s] schedule has become increasingly
erratic” and that “frequent absences and late arrivals
[have begun] to affect her assigned unit and
individual performance”); id. at 606 (April 23, 2015
memo) (describing Hannah’s history of attendance
issues and Appellee’s attempts to accommodate
Hannah and noting that, despite those attempts,
“[Hannah’s] late attendance has continued”); id. at
635–36 (Ewing’s June 30, 2015 email) (detailing
Hannah’s problem with “attendance at work,” noting
that Hannah’s “absences and late arrivals were
affecting her assigned staff element and her
individual performance,” and concluding that
Hannah’s “recent performance is not consistent with
a potentially good employee.”).
Accordingly, Hannah did not point to any genuine
issue of material fact that Appellee’s purported basis
for not hiring her was merely a pretext for
discriminating against her on the basis of her
depression.

27a
b.
Appellee’s Nondiscriminatory Explanation
i.
Moreover, the record indicates that Appellee’s
proffered explanation for not hiring Hannah for the
Cyber position is genuine, legitimate, and
nondiscriminatory.
As the district court concluded, a continuous
attendance issue is a legitimate reason for
withholding an employment benefit. See Tyndall, 31
F.3d at 213 (finding an employee who cannot satisfy
their employer’s attendance policy cannot be
considered “qualified” for the purposes of the ADA).
Hannah might have been exceptionally talented and
substantively good at her job, but as noted above, “[i]n
addition to possessing the skills necessary to perform
the job in question, an employee must be willing and
able to demonstrate these skills by coming to work on
a regular basis.” Id.
Hannah asserts that “serious questions of fact
exist as to whether Hannah even had ‘significant
attendance and reporting problems.’” Appellant’s Br.
28. But the record evidences no less than 13
attendance issues that occurred in the 46 days
between Appellee’s first attempt to accommodate
Hannah on March 19, 2015, and the revised plan
made on May 4, 2015. Compare J.A. 114, 174 (noting
Appellee’s March 19, 2015 meeting with her
supervisor and original accommodation asking her to
arrive at work by 10 AM or report to a supervisor),
with id. at 556 (indicating four unexcused absences
and nine late arrivals between March 19 and April 29

28a
that Appellee failed to timely report). 7 In light of
Hannah’s failure to arrive or call in before 10 AM 13
times in 46 days, there is no genuine issue of material
fact about Hannah’s significant attendance and
reporting problem.
ii.
Hannah also argues that because her disability
was the cause of her attendance issues, Appellee could
not withhold an employment benefit from her on that
7 The record reflects the following late arrivals and absences for
Hannah between March 19, 2015, and May 4, 2015: (1) April 2:
Hannah emailed at 11:02 AM indicating she would arrive to work
by 12 PM; (2) April 8: Hannah emailed at 11:05 AM indicating
she would arrive to work by 12 PM; Hannah emailed again at
1:55 PM indicating she would not be coming in that day; (3) April
9: Hannah emailed at 11:11 AM indicating her car was towed and
she would arrive at work by 1 PM; (4) April 13: Hannah emailed
at 10:58 AM indicating she would arrive at work by 11:30 AM;
(5) April 14: Hannah emailed at 11:08 AM indicating she would
arrive at work by 12 PM; (6) April 16: Hannah’s supervisor
emailed Hannah at 10:18 AM looking for her; when Hannah was
reached at 11 AM, she indicated she would arrive to work by 12
PM; (7) April 20: Hannah emailed at 10:45 AM indicating she
would arrive to work by 11:30 AM; Hannah’s supervisor
confirmed her arrival at 12:50 PM; (8) April 22: Hannah emailed
at 11:01 AM indicating she would arrive at work after 12 PM;
Hannah emailed again at 12:41 PM indicating she would arrive
at 1 PM due to traffic; (9) April 23: Hannah emailed at 10:59 AM
indicating she would arrive at work by 12 PM; Hannah emailed
again at 12:56 PM indicating she would not be coming in that
day due to a migraine; (10) April 24: Hannah emailed at 11:02
AM indicating she would arrive at work in the afternoon;
Hannah later called at 3:24 PM indicating she would not be
coming in that day; (11) April 27: Hannah’s supervisor emailed
indicating Hannah arrived at work by 11 AM; (12) April 28:
Hannah emailed at 10:52 AM indicating she would arrive at
work by 11:30 AM; (13) April 29: Hannah emailed at 11:49 AM
indicating she would not come in to work that day. See J.A. 556.

29a
basis. We have no doubt that Hannah’s struggle with
depression was the cause of her attendance issues,
and we are sympathetic to the toll this condition took
on a highly talented employee. However, Appellee
was nevertheless permitted to take Hannah’s
attendance issues into account in its decision whether
to hire her for the Cyber position. To reiterate, the
Rehabilitation Act “does not require an employer to
simply ignore an employee’s blatant and persistent
misconduct, even where that behavior is potentially
tied to a medical condition.” Vannoy, 827 F.3d at 305;
cf. Martinson v. Kinney Shoe Corp., 104 F.3d 683, 686
n.3 (4th Cir. 1997) (“Misconduct -- even misconduct
related to a disability -- is not itself a disability, and
an employer is free to fire an employee on that basis.”).
iii.
Finally, Hannah argues that by the time Appellee
made the decision not to hire her, her attendance had
improved. She asserts that between returning from
her leave of absence on June 1, 2015, and learning
that she was not selected for the permanent position
on June 17, 2015, she “had shown she was able to
perform the essential functions of the job and had no
current attendance issues.” Appellant’s Br. 32.
Hannah is correct that in a failure to hire case,
the relevant inquiry is the candidate’s performance
“at the time of the employment decision or in the
immediate future.” Lamb v. Qualex, Inc., 33 F. App’x
49, 57 (4th Cir. 2002). However, Appellee was not
required to consider the two weeks before the decision
was made in a vacuum. Moreover, it is not the job of
this court to decide whether Appellee made the right
choice by not hiring Hannah for the Cyber position.
Rather, our job is simply to decide whether Appellee

30a
made an illegal choice. See Feldman v. Law Enf’t
Assocs. Corp., 752 F.3d 339, 350 (4th Cir. 2014)
(explaining that we do not “sit as a kind of superpersonnel department weighing the prudence of
employment decisions”).
Because Hannah not did demonstrate that
Appellee’s purported basis for not hiring her was
merely a pretext for discriminating against her on the
basis of her depression, and because Hannah’s
attendance problem was a legitimate and
nondiscriminatory reason to not hire her, we conclude
that summary judgment was appropriate on her
Rehabilitation Act discrimination claim.
B.
FMLA Claims
The FMLA gives employees with qualifying
medical conditions the right to take up to 12 weeks of
leave during a 12-month period “[b]ecause of a serious
health condition that makes the employee unable to
perform the functions of” her job.
29 U.S.C.
§ 2612(a)(1)(D). “The employee has an accompanying
right to return to the same or an equivalent position
at the conclusion of the leave period.” Reed v. Buckeye
Fire Equip., 241 F. App’x 917, 923 (4th Cir. 2007)
(citing 29 U.S.C. § 2614(a)(1)).
As discussed below, as to Hannah’s FMLA
interference claim, Hannah illustrates a genuine
issue of material fact regarding the notice of her
depression and her desire to take a leave of absence.
But, for the same reasons Hannah’s Rehabilitation
Act discrimination claim fails, Hannah’s FMLA
retaliation claim fails as well.

31a
1.
Interference
a.
The district court incorrectly concluded that
Hannah’s disclosure of her depression was not
sufficient to put Appellee on notice that Hannah could
have qualified for FMLA protections. Accordingly,
summary judgment was not warranted as to
Hannah’s FMLA interference claim.
“An employee is mandated to provide notice to
her employer when she requires FMLA leave.”
Brushwood v. Wachovia Bank, N.A., 520 F. App’x 154,
157 (4th Cir. 2013) (quoting Rhoads v. FDIC, 257 F.3d
373, 382 (4th Cir. 2001)). That said, an employee need
not specifically invoke the FMLA to benefit from its
protections. See Dotson v. Pfizer, Inc., 558 F.3d 284,
295 (4th Cir. 2009). Proper notice does not require
“any magic words.” Id. Indeed, “[w]hen an employee
seeks leave for the first time for a[n] FMLA-qualifying
reason, the employee need not expressly assert rights
under the FMLA or even mention the FMLA.” 29
C.F.R. § 825.302. Proper notice merely “makes the
employer aware” that the employee needs potentially
FMLA-qualifying leave. Brushwood, 520 F. App’x at
157. And once the employer is on notice of the
employee’s need to take potentially FMLA-qualifying
leave, “the responsibility falls on the employer to
inquire further about whether the employee is seeking
FMLA leave.” Dotson, 558 F.3d at 295.
A reasonable jury could find that Hannah’s
disclosure of her depression and her April 9, 2015
request for psychiatrist-recommended leave was
sufficient to trigger Appellee’s responsibility to

32a
inquire further about whether Hannah was seeking
FMLA leave. We have held that disclosure of a
potentially FMLA-qualifying circumstance and an
inquiry into leave options is sufficient to create a
material question of fact regarding whether an
employee triggered her employer’s FMLA obligations.
See Dotson, 558 F.3d at 291, 295 (finding that an
employee informing his employer that he was
adopting a child and speaking to a human resources
representative about “taking leave during the
adoption process” was sufficient to create a question
of fact as to whether the employer’s FMLA-inquiry
duties had been triggered).
b.
Here, Hannah informed her supervisors of her
depression on multiple occasions. See, e.g., J.A. 413
(April 9, 2015 memo from Hannah’s supervisors)
(“Early in her tenure . . . and reaffirmed recently,
[Hannah] informed us that she was meeting with a
psychiatrist and counselor and taking medication for
depression.”). 8
And on April 9, 2015, Hannah
explained to her supervisors that her psychiatrist
recommended that she take four weeks of medical
leave. Hannah’s disclosures about her depression and
her psychiatrist’s recommendation could lead a
reasonable jury to find that Appellee was on notice
that Hannah was inquiring about potentially FMLAqualifying leave, triggering Appellee’s responsibility

8 Indeed, Hannah’s supervisors had “grown increasingly alarmed
at the overall change in [Hannah’s] demeanor.” J.A. 413.

33a
to inquire further about whether Hannah was seeking
FMLA leave. 9
c.
Appellee argues that Hannah’s interference
claim fails because Hannah cannot demonstrate that
her depression was “a serious health condition.”
Appellee’s Resp. 40–41; see also 29 U.S.C.
§ 2612(a)(1)(D). But that argument is premature.
Appellee has not shown that it made any inquiry into
whether Hannah’s depression was an FMLAqualifying serious health condition.
Appellee’s
argument “would allow it to use its own failure to
determine whether leave should be designated as
FMLA-protected to block liability.” Dotson, 558 F.3d
at 295. We have refused “to allow an employer to take
advantage of its own lapse in such a way.” Id.
d.
Additionally, Appellee’s failure to provide notice
of the availability of FMLA leave prejudiced Hannah
because if she had been aware of the availability of
FMLA leave, she could have structured her leave
differently. The FMLA “provides no relief unless the
employee has been prejudiced by the violation.”
Vannoy, 827 F.3d at 302 (citing Ragsdale v. Wolverine
World Wide, Inc., 535 U.S. 81, 89 (2002)). “Prejudice
may be gleaned from evidence that had the plaintiff
received the required (but omitted) information
regarding his FMLA rights, he would have structured
his leave differently.” Id.

9 It is undisputed that Appellee did not inquire about whether
the leave should be classified as FMLA-protected.

34a
Here, the record contains evidence that if
Hannah had known that the FMLA protected her
position, she would have used only sick leave for her
leave of absence. See J.A. 664 (Hannah’s declaration)
(“Had I known I could have chosen to take sick leave
for the entire period, I would have elected to do so.”).
Instead, she used a combination of sick leave and
annual time to take four weeks off. According to
Hannah, “[u]nlike annual leave, sick leave is not paid
out at the end of an employee’s service, resulting in a
loss of a benefit worth at least $20,000.” Id. Based on
Hannah’s testimony, a jury could find that Hannah
was prejudiced by Appellee’s failure to inquire into the
availability of FMLA leave and thus interfered with
her FMLA rights.
For these reasons, Hannah has demonstrated a
genuine issue of material fact that should have
precluded summary judgment on her FMLA
interference claim.
2.
Retaliation
As for Hannah’s FMLA retaliation claim,
however, the district court correctly concluded that
like her discrimination claim brought pursuant to the
Rehabilitation Act, Hannah did not sufficiently rebut
Appellee’s legitimate, nonretaliatory reason for not
hiring Hannah for the Cyber position.
The
FMLA
prohibits
employers
from
discriminating against an employee for exercising her
FMLA rights. See 29 U.S.C. § 2615(a)(2). As relevant
here, “employers cannot use the taking of FMLA leave
as a negative factor in employment actions.” 29 C.F.R.
§ 825.220(c).
Courts analyze FMLA retaliation

35a
claims, like discrimination claims brought pursuant
to the Rehabilitation Act, under the McDonnell
Douglas burden-shifting framework. See Laing v.
Fed. Express Corp., 703 F.3d 713, 717 (4th Cir. 2013).
To establish a prima facie case of FMLA retaliation, a
plaintiff must demonstrate that “(1) she engaged in a
protected activity; (2) her employer took an adverse
employment action against her; and (3) there was a
causal link between the two events.” Adams v. Anne
Arundel Cty. Pub. Schs., 789 F.3d 422, 429 (4th Cir.
2015) (internal quotation marks omitted). If the
plaintiff establishes a prima facie case, the burden
shifts to the defendant to provide a legitimate,
nonretaliatory reason for taking the employment
action at issue. Id. If the defendant does so, the
burden shifts back to the plaintiff to demonstrate that
the defendant’s proffered reason is pretextual. Id.
Even assuming Hannah demonstrated a prima
facie case of FMLA retaliation, summary judgment
was proper because she failed to rebut Appellee’s
legitimate, nonretaliatory reason for not hiring her for
the Cyber position. Appellee asserts that it relied on
Hannah’s attendance issues in deciding not to hire her
for the position, and the evidence in the record
supports that assertion. See J.A. 635–36 (Ewing’s
June 30, 2015 email expressing concerns about
Hannah’s application for the Cyber position) (noting,
“despite some apparently solid performance while on
the Snowden project,” Appellee had “a consistent
history of issues with [Hannah] over many months”
regarding Hannah’s “attendance at work and
attitude”); id. at 219 (Ewing’s deposition testimony)
(“The primary reason that I was concerned [about
Hannah’s application] was the fact that her conduct
was extremely negative at the point of time we were

36a
making a hiring decision for permanent employment
status.”).
Hannah points to no evidence that
adequately
undermines
Appellee’s
proffered
nonretaliatory reason for not hiring her. 10
Accordingly, the district court properly granted
summary judgment on Hannah’s FMLA retaliation
claim.
IV.
For these reasons, we affirm the judgment of the
district court as to Hannah’s Rehabilitation Act
claims and FMLA retaliation claim. We vacate the
grant of summary judgment as to Hannah’s FMLA
interference claim because there is a genuine issue of
fact as to whether Hannah’s disclosure of her
depression was sufficient to put Appellee on notice
that Hannah could have qualified for FMLA
protections. Accordingly, we remand for further
proceedings as to that claim.
AFFIRMED IN PART, VACATED IN PART, AND
REMANDED

10 Hannah again argues, as she did in the context of her claim of
discrimination under the Rehabilitation Act, that the
“inconsistency” between the sworn statement Ewing provided
during the EEOC investigation of Hannah’s case and an email
he sent more than a year earlier exposes Appellee’s proffered
reason for not hiring her for the permanent position as
pretextual.
For the same reasons explained above, that
argument fails.

37a
GREGORY, Chief Judge, concurring in part and
dissenting in part:
Hannah P. was undisputedly an excellent
intelligence officer. The Office of the Director of
National Intelligence (“ODNI”) entrusted her with the
high-stress, high-profile Edward Snowden case. She
worked tirelessly and impeccably on that assignment,
and ODNI praised her performance. For the duration
of that assignment, Hannah kept nonconventional
work hours with the knowledge and consent of her
supervisors, and her attendance was not considered a
problem.
It was only after the Snowden project ended, and
Hannah’s depression worsened, that her supervisors
found fault with her work hours, though she remained
formally on a flexible schedule. When Hannah
requested an accommodation for her depression—a
leave of absence recommended by both of her medical
professionals—Hannah’s supervisors refused to
timely grant the request. This was despite the fact
that her supervisors had offered to grant her leave
just a few months earlier—before her depression was
triggered.
The result of this was tragic. Hannah was denied
a permanent position for which it is undisputed that
she was exceptionally qualified and for which the
interview panel unanimously selected her. ODNI
concedes that Hannah’s depression qualifies as a
disability protected by the Rehabilitation Act. Yet,
the employer denied Hannah, a dedicated and
valuable employee, the protection that the law
requires.

38a
The majority mistakenly fails to see the force of
Hannah’s claims.
Though the majority cites
repeatedly to our decision in Vannoy v. Federal
Reserve Bank of Richmond, it fails to grapple with the
stark distinctions between the “blatant and persistent
misconduct” by the employee in that case and
Hannah’s cooperative attempts to satisfy her
supervisors’ expectations, despite the increasingly
severe symptoms of her disability. 827 F.3d 296, 300
(4th Cir. 2016).
While I concur in Parts III.A.2.a, III.A.3, and
III.B.1 of the Court’s opinion, I cannot agree that no
genuine issue of material fact exists with respect to
Hannah’s claims that ODNI violated the
Rehabilitation Act and Family and Medical Leave Act
(“FMLA”) when it discriminated against her on the
basis of her disability, failed to reasonably
accommodate her depression, wrongfully required a
medical examination of her as a current employee,
and chose not to hire her for permanent employment
in retaliation for her FMLA-qualifying leave. I believe
that several disputes of fact exist and that Hannah is
entitled to her day in court. Therefore, I respectfully
dissent with respect to those claims.
I.
Hannah’s supervisors were informed early in her
employment that she suffered from depression. She
was under the treatment of a psychiatrist and a
licensed clinical social worker and did not initially
request any work accommodations because she “was
adequately handling [her] depression at the time with
medication and counseling.” J.A. 19–20.

39a
Despite her depression, Hannah excelled at her
job. In her position as the disclosures coordinator for
the Edward Snowden project, her “leadership, poise,
and performance were impeccable.” J.A. 412. She was
described by her supervisors as “an outstanding
employee
combining
energy/drive,
technical
competence, superb communication and networking
skills, and superior analytic tradecraft.” Id. In short,
Hannah was considered “an invaluable intelligence
officer and a future [Intelligence Community] leader.”
Id.
The high-profile Snowden project required long
work hours, and Hannah was not required to
maintain an established “core” hours schedule.
Instead, she worked a “maxi flex” schedule, which
permitted her to vary her schedule so long as she put
in 80 hours of work in each two-week period. J.A.
492–93. She often came in later than other ODNI
employees (around noon), but stayed later as well.
J.A. 494.
In November or December 2014, as the Snowden
project was coming to a close, Hannah’s supervisors
encouraged her to take leave, a common practice for
ODNI employees “after finishing a burn-out job.” J.A.
173. Hannah did not take her supervisors up on the
offer, however, not only because she was interviewing
for permanent employment, but also because “there
was still ambiguity over whether the [Snowden]
disclosures responsibilities had truly finished.” Id.
During this time, Hannah’s depression became
more serious. She had trouble arriving at work before
noon and had unscheduled absences.
Hannah
remained on a maxi flex schedule, however, and it was
not until March 19, 2015, that she was informed that

40a
her attendance and arrival time were problematic.
J.A. 461, 495. In fact, her first-line supervisor had no
concerns about her attendance or work hours in early
2015 and asked Hannah to fill in as acting chief of
their division while he was out of the office in late
February. J.A. 494–95, 498.
When Hannah’s supervisor spoke with her about
her work hours on March 19, 2015, Hannah was not
told that she was required to return to a “core”
schedule.
Rather, Hannah and her first-line
supervisor agreed that Hannah would either arrive at
work by 10:00 a.m. or contact her supervisors if she
was unable to arrive by that time; if she neither
arrived at work nor contacted the office by 11:00 a.m.,
her supervisor would reach out to her by phone. J.A.
114.
Hannah’s second-line supervisor had no
objection to the arrangement; he “wanted to see what
would happen.” J.A. 345.
The day after making this arrangement, Hannah
did not report for work by 10:00 a.m. When she did
not arrive by 11:00 a.m., her supervisors did not call
her. Instead, she emailed them at 11:05 a.m.,
advising she would be in around 12:30 p.m. J.A. 118.
After that work day, Hannah began a prescheduled week-long leave during which she was
preoccupied with home renovations. J.A. 114. At the
end of the week, she emailed her supervisors to inform
them she would not be in Monday, the next business
day, because of the renovations. J.A. 120. On
Tuesday, Hannah emailed her supervisors notifying
them that she would not be in that day either. J.A.
122.

41a
On Wednesday, when Hannah did not come in by
10:00 a.m., Hannah’s second-line supervisor called
her. J.A. 174. According to Hannah, her supervisor
was “angry” and demanded to know why Hannah had
not arrived. Id. Hannah apologized, explained she
was having trouble getting out of bed, and indicated
that she would be in as soon as possible. Id. When
she arrived at work, her supervisor told her that the
arrangement they had made “was not working.” J.A.
175. She was told that she was solely responsible for
contacting the office in the event she would be late or
absent, and that her supervisors would not be
contacting her. J.A. 90. The arrangement had been
in place for a total of four days on which Hannah was
scheduled to work.
Hannah asked that her supervisors “give the
current accommodation more time to work.” J.A. 175.
Her supervisor, who was aware of Hannah’s
depression, insisted that Hannah propose an
alternative plan “right then.” Id. She was ultimately
given “a day or two” to propose an alternative. Id.
The next day, on April 2, 2015, Hannah emailed
her supervisors at 11:02 a.m., notifying them that she
would be in by noon. J.A. 124. That day, Hannah’s
supervisors met with ODNI’s Employee Management
Relations Officer, the head of ODNI’s Equal
Employment Opportunity and Diversity Office, and
the head of ODNI’s Human Resources Division to
discuss how to best address Hannah’s attendance and
reporting. J.A. 66, 128, 149. They collectively decided
to refer Hannah to the Central Intelligence Agency’s
Employee Assistance Program (“EAP”). 1 J.A. 326–29.
Hannah was referred to the CIA’s EAP program because ODNI
did not have one of its own. The EAP provides employees with
1

42a
Although Hannah’s supervisors were well aware of
her depression, she was referred to the EAP to “help
identify what her challenges were and provide her any
support she needed,” such as “accommodation with
work hours, . . . counseling or any other type of
support.” J.A. 139–40.
Hannah’s supervisors drafted a memorandum,
which they dated April 9, 2015, referring Hannah to
the EAP. The memo outlined Hannah’s “impressive
capabilities” and her work with ODNI, commented on
her recent attendance, and explained that Hannah
had disclosed to her supervisors that she was meeting
with a psychiatrist and counselor and taking
medication for depression. J.A. 412–13. The memo
also noted:
Hannah has indicated that she is struggling to
get out of bed in the morning and admits to
feeling almost paralyzed. She has also indicated
that she had a recent change in medication and
that the upheaval in her living arrangements
negatively impacted some of her physical coping
mechanisms.
J.A. 413. The memo explained that “as senior
intelligence officials,” Hannah’s supervisors “ha[d] a
duty to identify and if possible help vulnerable
employees.” J.A. 414.
Meanwhile, Hannah met with her psychiatrist
and counselor.
Both professionals agreed that
Hannah should take four weeks of leave. J.A. 175.
Accordingly, Hannah met with her supervisors on
“free, confidential, short-term mental health[,] financial, and
addictions counseling and referral to cleared community
providers.” J.A. 132.

43a
April 9, 2015 and requested a four-week leave of
absence. J.A. 424, 449, 468. Her supervisors did not
ask her for any medical documentation to support the
leave request because they expected to receive a
“quick answer” from EAP. J.A. 95. They also believed
that Hannah’s medical providers did not have “the
expertise to provide” an opinion on “all of the items”
that they were planning to submit to EPA. Id.
Hannah’s supervisors denied her leave request;
they had already determined before meeting with
Hannah that if Hannah asked for leave, they would
“defer that decision until after meeting with EAP.”
J.A. 422. One of Hannah’s supervisors explained in
her deposition that she “wanted to get a sense
[Hannah] was in a good place.” J.A. 431. According
to that supervisor, the “rationale” of the group that
decided to refer Hannah to EAP first was:
If this were . . . a bad behavior problem, there
would be no need to grant immediate leave.
If it were a medical mental health problem, the
thought was, granting leave and isolating
[Hannah] from day-to-day contact with her
coworkers and her managers when we didn’t
know her state of mind and how much medical
care she was receiving could, potentially, be
dangerous.
J.A. 422–23. Hannah’s second-line supervisor told her
that the decision was made because of concern that
“since [Hannah] was a single woman if [she] took
leave [she] would be home by [herself] and that could
make [her] depression worse.” J.A. 176. It was made
clear that Hannah was required to attend EAP
counseling; if she refused, her temporary position

44a
would be deemed “as excess” and she would lose her
job “immediately.” Id.
Hannah’s first-line supervisor disagreed with the
others’ proposed course of action; he believed that the
supervisors should not “substitute [their] judgment
for [Hannah’s] doctor’s.” J.A. 504. Nonetheless,
Hannah signed the memo to EAP and attended an
appointment with an EAP counselor the next day,
April 10, 2015.
On Monday, April 13, 2015, Hannah met again
with one of her supervisors to discuss her leave
request. Her supervisor told her that her leave
request was approved but “was pushing” her to take
only two weeks off, not the four she had requested.
J.A. 524, 528. He explained that Hannah would have
to submit to a medical evaluation if she wished to take
leave beyond the two weeks. J.A. 524. Hannah felt
uncomfortable with her supervisor’s pushiness and
confused about the status of her leave request so she
responded that her request was “on hold.” Id. She
wanted to figure out what the EAP counselor had told
her supervisor and to confirm her legal options. Id.
Hannah continued to arrive at work later than
10:00 a.m. during April 2015. During that month,
Hannah also continued attending the EAP sessions.
In those sessions, Hannah testified, she was
questioned about her medical history, her family’s
medical history, and the medication she was taking
and its dosage. J.A. 531–32. In the third session,
Hannah was given a diagnostic questionnaire “to
assess depression or severity of those sorts of things.”
J.A. 534.

45a
On April 16, 2015, the EAP counselor had an
extended forty-minute discussion with Hannah’s
second-line supervisor. During that discussion, the
counselor disclosed that Hannah’s “lack of
motivation/inability to come to work” was primarily
influenced by feelings of frustration over not securing
a permanent position at ODNI. J.A. 604. At some
point, the counselor also indicated that Hannah was
not cooperating with the EAP process because she was
spending “more than half the session at times”
expressing concerns over the record retention policy.
J.A. 192.
A week later, Hannah’s second-line supervisor
circulated a status update via email to ODNI
leadership outlining the information shared by the
EAP counselor. That information included Hannah’s
explained reasons for her inability to arrive
punctually for work, as well as Hannah’s concerns
that the EAP process would “create a paper trail that
[would] adversely impact her future employment and
career.” J.A. 606. The email also indicated that the
EAP counselor had identified “non-medical” factors as
the primary cause of Hannah’s attendance problems.
J.A. 607.
On April 28, 2015, Hannah met with one of her
supervisors and reiterated her request for four weeks
of leave. J.A. 41. She was told that her leave request
would be approved if she met with the EAP counselor
once more on May 1, 2015 and signed a Letter of
Expectations. J.A. 42. Hannah attended the May 1
appointment and signed the Letter of Expectations on
May 4, 2015. J.A. 43. The Letter of Expectations
provided that, “[e]ffective immediately,” Hannah
would begin work by 10:00 a.m. and would contact her

46a
office no later than 9:30 a.m. in the event she would
be late. J.A. 614.
Beginning on May 5, 2015, Hannah took a fourweek leave of absence. She returned to work on June
1, 2015 and was immediately tasked with leading a
significant study. J.A. 44–45. Her attendance
problem “largely disappeared as Hannah responded to
the need for daily meetings all over the community.”
J.A. 612.
On June 9, 2015, Hannah interviewed for a
permanent position with ODNI—Program Mission
Manager Cyber (“Cyber”), a job she had applied for at
the end of April or beginning of May 2015. J.A. 620–
21. She was unanimously selected by the interview
panel as the most qualified candidate for the position.
J.A. 206, 625. A week later, the interview panel
forwarded its recommendation to ODNI’s Chief
Management Officer, Mark Ewing. J.A. 206–07.
Ewing was already aware of the decision to refer
Hannah to the EAP and had been consulted in that
decision-making process.
J.A. 216.
As Ewing
testified, the EAP referral was intended not only to
address Hannah’s issues with the temporary job she
had at the time; Ewing’s “concern was her conduct in
relationship to being selected for a permanent
government position.” J.A. 217, 585.
Hannah’s application for the Cyber position
stalled for several weeks, despite the fact that the
approval process typically only took a few days. J.A.
443, 630. On June 25, 2015, members of the interview
panel began questioning the holdup. J.A. 633. In
response, Ewing sent an email to the Principal Deputy
Director of National Intelligence (“PDDNI”)
recommending that Hannah not be approved for the

47a
Cyber position based on her recent attendance
history. J.A. 635–36. Ewing also represented that the
EAP counselor had concluded that Hannah did not
have a medical problem, “rather she is a disciplinary
problem.” J.A. 635.
The PDDNI shared that email with the Director
of National Intelligence (“DNI”). Neither the PDDNI
nor the DNI approved Hannah for the permanent
position. J.A. 722. On July 7, 2015, Hannah was
notified that she was not selected for the position. J.A.
638. Hannah completed her temporary term at ODNI
on March 27, 2016 as a high performer, yet did not
secure a permanent position with the department.
II.
A.
I first take issue with the Court’s treatment of
Hannah’s
discrimination
claim
under
the
Rehabilitation Act. The majority concludes that
Hannah’s 13 “attendance issues” between March 19,
2015 and May 4, 2015 constituted a “significant
attendance and reporting problem.” Maj. Op. at 27–
28. Accordingly, the majority credits this proffered
legitimate, non-discriminatory reason for ODNI’s
failure to hire Hannah for the permanent Cyber
position. 2 The majority also concludes that Hannah
has failed to satisfy her burden at this stage of
presenting
sufficient
evidence
that
ODNI’s
explanation for rejecting her application is pretext for
disability discrimination. Maj. Op. 24–26.

2 ODNI does not dispute that Hannah’s depression qualifies as a
disability under the Rehabilitation Act.

48a
I disagree with the majority’s conclusions for
several reasons. Fundamentally, ODNI’s proffered
reason for not hiring Hannah reflects a
misunderstanding of Hannah’s disability. Among the
most typical symptoms of depression are a loss of
interest in nearly all activities, decreased energy,
disturbed or irregular sleep, and an impaired ability
to function in one’s daily activities, including
communicating with others. Jerry Von Talge, Ph. D.,
Major Depressive Disorder—Essential Features, 26
Am. Jurisprudence Proof of Facts 1, § 12 (3d ed. 1994);
Spangler v. Fed. Home Loan Bank of Des Moines, 278
F.3d 847, 853 (8th Cir. 2002) (“A jury could consider
the difficulty one suffering from depression has with
communications . . . .”). “Even the smallest tasks seem
to require substantial effort.”
VonTalge, Major
Depressive Disorder—Essential Features, 26 Am.
Jurisprudence Proof of Facts 1, § 12. In Hannah’s
case, although she was taking medication to treat her
depression, she was “unable to just get going.” J.A.
413. She was “lethargic or almost unconcerned.” Id.
Her demeanor was “sad, very flat, and almost trance
like.” Id. Yet, Hannah came to work, and her job
performance remained “excellent.” J.A. 408.
In light of the nature of Hannah’s disability and
the record evidence, I am baffled by the majority’s
conclusion that her conduct amounted to a “significant
attendance and reporting problem” as a matter of law.
Maj. Op. at 28; see Vannoy v. Fed. Reserve Bank of
Richmond, 827 F.3d 296, 300 (4th Cir. 2016)
(“Summary judgment is appropriate if there is no
genuine dispute as to any material fact and the
movant is entitled to judgment as a matter of law.”
(internal citations and quotation marks omitted)).
Hannah’s behavior is far from the “blatant and

49a
persistent misconduct” that we have found to be
lawful grounds for adverse employment actions in this
context. Vannoy, 827 F.3d at 305. In Vannoy, for
example, the employee, like Hannah, suffered from
depression. Id. at 299. We found that Vannoy’s
employer had a legitimate, nondiscriminatory reason
to terminate his employment, despite his disability,
when Vannoy had several unscheduled absences from
work; drove an employer vehicle for a three-day, outof-state work assignment and stayed at a hotel paid
for by his employer, yet did not once report for duty;
refused to complete his portion of a performance
improvement plan; and left work without
authorization. Id. at 299–300, 305. It was in that
context that we explained that the Americans with
Disabilities Act (“ADA”) “does not require an employer
to simply ignore an employee’s blatant and persistent
misconduct, even where that behavior is potentially
tied to a medical condition.” Id. at 305 (emphasis
added); see also 29 U.S.C. § 791(f) (incorporating ADA
employment standards into section 501 of the
Rehabilitation Act).
Unlike in Vannoy, the record here does not paint
a picture of Hannah as an insubordinate employee
who refused to cooperate with her employer and
blatantly misused department resources. To the
contrary, Hannah openly communicated with her
supervisors, even if she did so later in the day than
they had expected. She informed her supervisors of
her depression and cooperated by attending the
sessions with the EAP counselor. During the 46-day
period between the first accommodation and
Hannah’s written agreement to begin work at a
specified time, she had four unscheduled absences and
came into work after 10:00 a.m. nine times. J.A. 556.

50a
On all but two occasions she communicated her
anticipated schedule to ODNI. And on one of those
two occasions, Hannah arrived by 11:00 a.m., the time
after which her supervisors were to contact her. Id.
During this time she actively worked with her medical
professionals to design an alternative solution, and
she requested, on more than one occasion, that ODNI
grant the recommended leave of absence. In fact,
Hannah was absent only once and arrived after 10:00
a.m. only twice before her initial leave request was
denied. See id. Had her supervisors granted her leave
of absence on April 9 when she first requested it, many
of her attendance issues would have been avoided. A
jury could reasonably conclude that Hannah’s late
arrivals to work continued only because her
depression was not effectively accommodated. See
J.A. 175 (both medical professionals recommended
four-week leave); J.A. 612 (noting Hannah’s
attendance problem “largely disappeared” upon her
return from leave). On this record, I find unfounded
the characterization of Hannah’s conduct as blatant
and persistent as a matter of law.
Furthermore, Hannah has sufficiently shown
that ODNI’s proffered reason for not hiring her—her
attendance problems—may be pretext for disability
discrimination. At the summary judgment stage,
Hannah need not conclusively prove discrimination.
But she must proffer sufficient evidence from which a
reasonable jury could conclude that she was in fact the
victim of intentional discrimination by ODNI.
Reyazuddin v. Montgomery Cty., Md., 789 F.3d 407,
419 (4th Cir. 2015). I would find that she has met this
burden for two reasons.

51a
First, as Hannah argues, questions of fact exist
as to whether her attendance was a serious problem,
or whether her attendance even violated any workhours policy. The record suggests that it was not until
May 4, 2015 that Hannah was given a formal time by
which to arrive at work.
See, e.g., J.A. 108
(“[D]ifferent people had different schedules . . . .”); id.
(explaining that while most employees arrived at
work around 9:00 a.m., there was no “explicit”
requirement to do so); J.A. 518 (denying that a “core
hours expectation” existed before September or
October 2015). Although her supervisors told her on
March 19, 2015 that she was to report by 10:00 a.m.,
they also initially agreed to contact her if she did not
report by 11:00 a.m. Had the 10:00 a.m. start time
been deemed a requirement, it would make little
sense to have made any further arrangements. When
one of her supervisors attempted to unilaterally
change that arrangement, he acceded to Hannah’s
request for time to propose an alternative. Hannah
requested the doctor-recommended leave of absence
as an alternative, but she was never told that she was
required to work specific hours; she remained
formally on a maxi flex schedule. It was not until the
Letter of Expectation on May 4, 2015 that a formal
start time was imposed. The department itself did not
move to “core” hours until October 2015. J.A. 518.
Therefore, Hannah’s work schedule during the
relevant time may have been “erratic,” but a
reasonable jury could conclude that it did not violate
any established work-hours requirement. 3
Hannah’s supervisors testified that, because she arrived later
than other employees, they were forced to reassign work that
would have fallen to her. There is evidence that the work
3

52a
Second, I would find that Mark Ewing’s
inconsistent statements regarding his knowledge of
Hannah’s disability, coupled with the above evidence,
are sufficient evidence of pretext to survive summary
judgment. The majority emphasizes that Ewing did
not have first-hand knowledge of her condition and
that he was informed that her depression was under
control. Maj. Op. 25. But depression is not like
physical illnesses; it does not simply dissipate
overnight. Its symptoms may be under control one
day yet triggered the very next. See Sidney H.
Kennedy, M.D., A Review of Antidepressant Therapy
in Primary Care: Current Practices and Future
Directions, Primary Care Companion for CNS
Disorders, vol. 15(2), PCC.12r01420 (Apr. 11, 2013)
(noting that major depressive disorder, the disease
with which Hannah was diagnosed, is “chronic and
episodic” in nature). Indeed, Hannah was able to
control her symptoms for years while working at
ODNI. Ewing was consulted by Hannah’s supervisors
in connection with their decision to refer Hannah to
EAP. J.A. 216. The EAP memo, a copy of which
Ewing possessed, explicitly stated: “[Hannah]
informed us that she was meeting with a psychiatrist
and counselor and taking medication for depression.”
J.A. 413.
And the memo implicitly made the
connection between Hannah’s “struggling to get out of
bed in the morning” and recent upheavals in her life
that “negatively impacted some of her physical coping
mechanisms.” Id. In fact, it noted that Hannah
assignments were made around 9:00 or 9:30 a.m. J.A. 108–09.
Had Hannah’s supervisors truly been concerned about being able
to assign her work, one would expect the accommodation they
offered to Hannah to have required her to come into the office by
9:00. No such requirement was ever made of her.

53a
“appear[ed] to gain more energy and become aware as
the day progress[ed] into early evening.” Id. On this
evidence, a reasonable jury could determine that
Ewing was aware that Hannah’s depression affected
her ability to get to work by 10:00 a.m. and required
medical intervention and that Ewing’s initial
statement that he was unaware of her condition was
intended to cover up the true reason for his desire not
to hire her: her disability.
In sum, because a reasonable jury could conclude
on this record that Hannah’s attendance issues were
far from “blatant and persistent misconduct,” Vannoy,
827 F.3d at 305, and that ODNI’s proffered reason for
failing to hire Hannah for the Cyber position was
pretext for discrimination on the basis of her
disability, I would reverse the district court’s grant of
summary judgment on the discrimination claim.
B.
I also take issue with the Court’s conclusion that
no question exists as to the reasonableness of the
accommodations made by ODNI. The reasonableness
of an accommodation depends “on a good-faith effort
to assess the employee’s needs and to respond to
them.” Feliberty v. Kemper Corp., 98 F.3d 274, 280
(7th Cir. 1996).
Importantly, “a ‘reasonable
accommodation’ is one that ‘effectively accommodates
the disabled employee’s limitations.’” Bellino v.
Peters, 530 F.3d 543, 549 (7th Cir. 2008) (emphasis
added) (citation omitted). In identifying a reasonable
accommodation, employers are required to engage in
an interactive process with the disabled employee. See
29
C.F.R.
§ 1630.2(o)(3);
Jacobs
v.
N.C.
Administrative Office of the Courts, 780 F.3d 562, 581
(4th Cir. 2015) (“The ADA imposes upon employers a

54a
good-faith duty ‘to engage [with their employees] in an
interactive process to identify a reasonable
accommodation.’” (quoting Wilson v. Dollar Gen.
Corp., 717 F.3d 337, 346 (4th Cir. 2013))); Bellino, 530
F.3d at 548–50 (discussing ADA’s interactive-process
requirement in the context of claim brought under
section 501 of the Rehabilitation Act). It is only if an
employer provides a reasonable accommodation that
the employer’s failure to engage in an interactive
process will not sustain a failure-to-accommodate
claim. Jacobs, 780 F.3d at 581.
The majority finds that ODNI provided Hannah
with two accommodations: (1) the March 19, 2015
agreement that Hannah would report for work by
10:00 a.m., and (2) the referral to EAP. Maj. Op. 12.
I submit that questions of fact exist with respect to
whether ODNI made a good-faith effort to respond to
Hannah’s needs and whether either of these
accommodations was effective, i.e., whether the
accommodations were reasonable. And because a
question of fact exists as to that issue, I agree with
Hannah that a question also exists as to whether her
employer engaged in the required interactive process.
Hannah argues that her supervisors’ initial
commitment to contact her if she did not contact them
or arrive by 11:00 a.m. was the sine qua non of the
first accommodation.
But Hannah’s supervisors
allowed that accommodation to remain in place for
only four working days before unilaterally modifying
it and, according to Hannah, angrily pressuring her to
propose an alternative accommodation on the spot.
When Hannah did propose an alternative—four
weeks of leave, as recommended by both of her
treating medical professionals—her supervisors

55a
denied the request because they had already decided
that EAP counseling was more appropriate.
Speculating that they knew better than both of
Hannah’s medical professionals, her supervisors
believed that her medical providers lacked “the
expertise to provide” an opinion on “all of the items”
they wanted to submit to the EAP. J.A. 95. And while
Hannah’s supervisors had suggested that she take
leave a few months earlier, prior to any signs that
Hannah’s disability would affect her ability to get into
work in the morning, J.A. 173, they threatened to
terminate her employment if she did not first attend
EAP sessions after she requested medically
recommended leave to cope with her depression, J.A.
176. On this evidence, the question of whether the
first accommodation and the decision to require EAP
counseling before granting medically recommended
leave were made in good faith and were effective to
address Hannah’s disability should be submitted to
the jury, as reasonable minds could conclude that they
were not.
Likewise, the reasonableness of ODNI’s delay in
granting Hannah leave should be decided by a jury.
Concededly, the short duration of the delay (from
April 9, 2015 to May 4, 2015) undercuts Hannah’s
argument of unreasonableness. See Terrell v. USAir,
132 F.3d 621, 628 (11th Cir. 1998) (finding that delay
of three months in providing accommodation was
reasonable). However, Hannah’s attendance—and
the manifestation of her depression—was negatively
impacted during the delay period; ODNI purposefully
delayed her leave while she attended required EAP

56a
sessions 4; ODNI would have terminated Hannah’s
temporary position if she failed to attend the EAP
counseling 5; and Mark Ewing intended to use the EAP
sessions to gather information regarding Hannah’s
suitability for future employment. 6 Presented with
this evidence, a reasonable jury could conclude that
the delay was the result of ODNI’s bad faith.
Feliberty, 98 F.3d at 280. Thus, I would reverse the
grant of summary judgment on Hannah’s reasonable
accommodation claim.
C.
I would also reverse summary judgment on
Hannah’s claim that she was subjected to an unlawful
medical examination as a current employee.
Under the Rehabilitation Act, “[a] covered entity
shall not require a medical examination and shall not
make inquiries of an employee as to whether such
employee is an individual with a disability or as to the
nature and severity of the disability, unless such
examination or inquiry is shown to be job-related and
consistent with business necessity.”
42 U.S.C.
§ 12112(d)(4)(A); 29 U.S.C. § 791(f).
See J.A. 422 (“The recommendation of the group was if Hannah
were to ask for leave, we should defer that decision until after
meeting with EAP.”); J.A. 176 (“EAP was concerned that since I
was a single woman if I took leave I would be home by myself
and that could make my depression worse.”).
4

See J.A. 176 (Hannah’s statement that she was told she had “no
choice” but to attend the EAP sessions or her job would be
terminated immediately).
5

6 See J.A. 584–85 (Mark Ewing’s deposition testimony that EAP
referral “wasn’t initially just about” Hannah’s temporary
position but also because Ewing “knew she was looking for
permanent employment”).

57a
First, a clear dispute exists as to whether the
EAP sessions constituted a required medical
examination under the Rehabilitation Act. Despite
the voluntary nature of EAP counseling highlighted
by the majority, Maj. Op. 15, two of Hannah’s
supervisors testified that the sessions were in fact
“mandatory.” J.A. 448, 474. As Hannah explained,
she was told by her supervisor that she had “no choice”
in the matter and that if she did not participate in the
EAP counseling, her temporary position with ODNI
would be declared “as excess” and she “would be out of
a job immediately.” J.A. 176.
The majority emphasizes the EAP counselor’s
testimony that she did not conduct a medical
examination. Yet, the Court’s opinion says nothing
about Hannah’s testimony regarding the substance of
her sessions with the counselor.
According to
Hannah, she was asked for a family medical history,
questioned about her medication and dosage, and
even administered a diagnostic tool used to assess
depression. J.A. 531–32, 534.
In light of this testimony, a reasonable jury could
conclude that the EAP sessions were in fact required
and that the diagnostic tool constituted a “procedure
or test that seeks information about an individual’s
physical or mental impairments or health.” E.E.O.C.,
Enforcement Guidance: Disability–Related Inquiries
and Medical Examinations of Employees Under the
Americans with Disabilities Act (ADA) (EEOC Notice
915.002) (July 27, 2000). Likewise, a jury could
determine that the questions asked during the
sessions amounted to a “series of questions . . . likely
to elicit information about a disability” and the scope
of Hannah’s disability. Id.; Grenier v. Cyanamid

58a
Plastics, Inc., 70 F.3d 667, 677 (1st Cir. 1995). As
Hannah’s supervisors explained, the decision to refer
her to EAP was to determine whether her attendance
was due to “a medical mental health problem.” J.A.
422. Their decision was predicated on a concern that
granting Hannah the doctor-recommended leave
could “make [her] depression worse” and could even
“be dangerous.” J.A. 176, 422–23. After meeting with
Hannah, the EAP counselor even suggested that
Hannah could have bipolar disorder. J.A. 601–02. If
faced with this evidence, a reasonable jury could
easily find that the EAP sessions were in fact required
medical examinations or disability-related inquiries.
With respect to the second prong of our inquiry—
whether the EAP sessions were job-related and
consistent with business necessity—questions of fact
also preclude summary judgment. “[W]hether a
mental examination was ‘job-related and consistent
with business necessity’ is an objective inquiry.”
Pence v. Tenneco Auto. Operating Co., Inc., 169 F.
App’x 808, 812 (4th Cir. 2006) (citing Tice v. Centre
Area Transp. Auth., 247 F.3d 506, 518 (3d Cir. 2001)).
It is the employer who bears the burden of proving
this prong. Kroll v. White Lake Ambulance Auth., 763
F.3d 619, 623 (6th Cir. 2014). “A business necessity
must be based on more than ‘mere expediency,’ and
will be found to exist where the employer can ‘identify
legitimate, non-discriminatory reasons to doubt the
employee’s capacity to perform his or her duties.’”
Coursey v. Univ. of Md. E. Shore, 577 F. App’x 167,
173 (4th Cir. 2014) (citing Conroy v. N.Y. State Dep’t
of Corr. Servs., 333 F.3d 88, 97–98 (2d Cir. 2003);
Thomas v. Corwin, 483 F.3d 516, 527 (8th Cir. 2007)).
A business necessity may also exist if a medical
examination is necessary to determine “whether an

59a
employee’s absence or request for an absence is due to
legitimate medical reasons, when the employer has
reason to suspect abuse of an attendance policy.”
Thomas, 483 F.3d at 527 (citing Conroy, 333 F.3d at
98).
I would find that ODNI is not entitled to
summary judgment because a reasonable jury could
conclude that the employer lacked a “reasonable belief
based on objective evidence that [Hannah] was unable
to perform the essential functions of her job or that
she posed a threat to herself or to others based on a
medical condition.” Wright v. Ill. Dep’t of Children
and Family Servs., 798 F.3d 513, 524 (7th Cir. 2015);
see also Kroll, 763 F.3d at 623 (“[T]he individual who
decides to require a medical examination must have a
reasonable belief based on objective evidence that the
employee’s behavior threatens a vital function of the
business.” (citing Pence, 69 F. App’x at 812) (other
citation omitted)). It is undisputed that Hannah’s
supervisors, as well as Mark Ewing, were involved in
the decision to refer Hannah to the EAP. Therefore,
the question is whether those supervisors had
objective evidence that Hannah was unable to
perform an essential function of her job. For the
period including Hannah’s “egregious” attendance
issues, she received an overall performance rating of
4.53 out of 5.00—a rating of “Excellent.” J.A. 406–10.
Yet the majority concludes that her poor attendance
precluded her from performing an essential function
of her job.
I submit that this conclusion cannot be reached
as a matter of law on this record, a record that
seriously calls into question ODNI’s sincerity in its
assertion that Hannah was unable to perform an

60a
essential function of her job. For the entirety of
Hannah’s time as the disclosures coordinator on the
Snowden project, she started work and left work later
than other ODNI employees. J.A. 25, 494. Although
she came in later, she got the job done, and she did it
“impeccabl[y].” J.A. 412. She was able to manage her
depression and worked long hours in a stressful
environment while excelling. J.A. 19–20, 412. Her
supervisors had no qualm with her attendance, and
aside from the maxi flex schedule, there was no formal
work-hours requirement in place. J.A. 492–94, 518.
When that project winded down in late 2014 and early
2015, Hannah’s supervisors did not institute “core”
hours or otherwise formally remove Hannah from the
maxi flex schedule. J.A. 461, 518. In light of
Hannah’s ODNI-sanctioned history of beginning her
work day later than others (a practice which simply
continued into April 2015), the apparent lack of any
formal policy requiring that her schedule be
otherwise, and her consistent “excellent” performance
reviews, there is at the very least a question of fact
regarding ODNI’s “reasonable belief based on
objective evidence that [Hannah] was unable to
perform the essential functions of her job.” Wright,
798 F.3d at 524.
This is not to say that the essential functions of
Hannah’s job did not include regular attendance. See
Tyndall v. Nat’l Educ. Ctrs., Inc. of Cal., 31 F.3d 209,
213 (4th Cir. 1994). However, as discussed above, a
jury could reasonably conclude that ODNI had no
“reason to suspect abuse of an attendance policy,”
Thomas, 483 F.3d at 527 (citation omitted), when no
such policy formally existed and when Hannah had
been allowed for over a year to begin work later than
other department employees. And although Hannah

61a
requested leave, her supervisors had decided before
Hannah’s request that they would defer a decision on
any leave request until after the EAP referral because
they expected a “quick answer” from EAP. J.A. 95.
But “mere expediency” is insufficient to establish
business necessity. Coursey, 577 F. App’x at 173.
In light of these considerations, I would submit
the issue of whether the EAP sessions were jobrelated and consistent with business necessity to the
jury for resolution.
D.
Finally, I would reverse the district court’s grant
of summary judgment on Hannah’s FMLA retaliation
claim. ODNI argues that Hannah cannot prove this
claim because her non-selection for the Cyber position
was due to “her significant attendance and reporting
problems prior to her first leave request.” Resp. Br.
48. For largely the same reasons that I would reverse
with respect to Hannah’s discrimination-in-hiring
claim, I would find that there is sufficient evidence in
the record to create a material issue of fact for the jury
to decide on this claim.
Hannah suffered from a disability, one that could
effectively
be
accommodated
with
leave.
Unfortunately, her leave was granted only after she
struggled to manage her disability—a struggle which
a reasonable jury could readily conclude did not
violate any attendance policy. Despite Hannah’s
rebound upon her return, ODNI used her late arrivals
during the time for which she requested but was
denied leave as grounds for denying her a permanent
position, a position for which it is undisputed that she
was exceptionally qualified. J.A. 623–25, 635–36. In

62a
essence, ODNI assigned Hannah to a high-stress
position after which her depression worsened; delayed
her request for FMLA-qualifying leave to
accommodate her depression, thereby intensifying her
symptoms; then refused to hire her for a permanent
role when she returned from leave. Because of this,
and for the reasons I articulate above, a jury could
reasonably conclude that ODNI’s rejection of
Hannah’s application for permanent employment was
based on the exercise of her FMLA rights in
requesting and taking a qualifying leave of absence to
accommodate her disability.

63a

APPENDIX B

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Alexandria Division
HANNAH P.,
Plaintiff,
v.
DANIEL COATS,
Director of the Office of
The Director of
National Intelligence,
Defendant.

)
)
)
)
)
)
)
)
)
)
)
)

Civil Action No. 1-16cv-1030

MEMORANDUM OPINION

THIS MATTER comes before the Court on a
Motion for Summary Judgment by Defendant Daniel
Coats, Director of the Office of The Director of
National Intelligence (“Defendant” or “ODNI”) and on
a Cross-Motion for Partial Summary Judgment filed
by the Plaintiff, Hannah P. 1 Plaintiff Hannah P.
(“Plaintiff”) worked at ODNI for a five-year term,
1 Pursuant to a protective order entered in this case, Plaintiff is
identified by her first name and the first initial of her last name.

64a
during which time she was diagnosed with Major
Depressive Disorder. Plaintiff alleges that ODNI
violated the Rehabilitation Act of 1973, 29 U.S.C.
§ 791, et seq., in refusing to hire her for a permanent
position; failing to accommodate her; creating a
hostile work environment; wrongfully requiring a
medical examination; and unlawfully disclosing
confidential medical information (Count I). Plaintiff
also alleges that ODNI interfered with and retaliated
against her for using leave under the Family and
Medical Leave Act (“FMLA”), 39 U.S.C. § 2601, et seq.
(Count II). Upon consideration of the memoranda filed
in support of and in opposition to Defendant’s motion
and the Plaintiff’s cross-motion, the Court concludes
that Defendant is entitled to summary judgment on
Counts I and II.
Plaintiff was hired by ODNI in March 2011 for a
five-year term working in the Systems and Research
Analysis unit. In the summer of 2011, Plaintiff was
diagnosed with recurrent Major Depressive Disorder
(“depression”). Around the time she was diagnosed
with depression, Plaintiff informed her then
supervisor of her diagnosis. She did not, however,
request an accommodation at that time.
In early 2015, after Plaintiff had finished
working on an 18-month long investigation that had
required extensive overtime, Plaintiff began arriving
to work late and missed several days of work. In
March 2015, Plaintiff’s supervisors approached her
with concerns about her schedule and her work
absences. Plaintiff told her supervisors that she was
experiencing acute bouts of depression, and that she
was having trouble getting to work. On March 19,
2015, Plaintiff met with one of her supervisors, and

65a
the two agreed upon a plan to make Plaintiff’s
schedule more regular. The plan stated that Plaintiff
was expected to arrive at work by 10 a.m., and if
Plaintiff was not going to be in by that time, she was
to call or email her supervisors. If Plaintiff had not
arrived at work or communicate with her supervisors
by 11 a.m., a supervisor would call her to determine
when she would arrive.
Over the next week, Plaintiff did not consistently
follow through with the plan. For example, on March
20, 2015, Plaintiff did not email her supervisors until
11:05 a.m. to advise that she would be in after 12 p.m.
because she was running errands for a house that she
had recently purchased. On March 31, Plaintiff
emailed her supervisors at 11:56 a.m. to inform them
that she would not be coming to work that day. On
April 1, by 12:30 p.m., Plaintiff had not arrived or
communicated when she would arrive, so her secondlevel supervisor called Plaintiff. When Plaintiff
arrived at work later that day, the second-level
supervisor told Plaintiff that the plan they had
created was not working.
Days later, Plaintiff met with her psychiatrist,
who recommended that Plaintiff take four weeks of
leave to address her depression. Around the same
time, on April 2, 2015, Plaintiff’s supervisors met and
decided to refer Plaintiff to the Employee Assistance
Program (“EAP”). The EAP is a voluntary counseling
service that assists employees in accessing resources
and services that can help them address problems
that are affecting their work. On April 9, Plaintiff’s
supervisors met with Plaintiff and presented her with
a management referral memorandum they had
drafted to the EAP setting forth Plaintiff’s attendance

66a
and reporting problems. In the memorandum,
Plaintiff’s supervisors explained that Plaintiff had
disclosed to them that she was seeing a psychiatrist
and taking medications for depression. They also
informed Plaintiff that they had scheduled an
appointment for her to meet with an EAP counselor
the following day. Plaintiff told her supervisors that
her psychiatrist had recommended that she take
leave. Her supervisors responded that they wanted
her to keep her appointment with the EAP counselor
and would discuss her leave request the following
week.
Plaintiff met with the EAP counselor on April 10,
2015. On April 13, 2015, Plaintiff told her supervisor
that she was putting her plan to take lave on hold.
Plaintiff continued to meet with the EAP counselor
through July 17, 2015. Plaintiff claims that during her
EAP sessions, she was questioned regarding her
mental health history and diagnoses, her past and
current medications and dosages, and her family
medical history. Plaintiff also alleges that the EAP
counselor discussed Plaintiff’s mental health history
with Plaintiff’s second-level supervisor.
Plaintiff’s attendance and reporting issues
continued through the month of April 2015. In late
April 2015, Plaintiff renewed her leave request.
Plaintiff’s leave request was approved and began on
May 5, 2015. Plaintiff used annual leave, except for
once a week, when she used sick leave for her
regularly scheduled counseling appointments. Prior to
her departure, on May 4, Plaintiff’s supervisors
presented Plaintiff with a Letter of Expectations that
documented her past attendance issues and set forth
ODNI’s expectations of Plaintiff when she returned

67a
from leave, which included arriving at work by 10 a.m.
and notifying a supervisor by 9:30 a.m. if she was
going to be late to work.
Shortly before going on leave, Plaintiff had
submitted an application for the Program Mission
Manager Cyber Position (“the Cyber position”).
Plaintiff returned to work on June 1, and on June 9,
she interviewed for the Cyber position. Plaintiff
learned after her interview that the interview panel
had recommended her for the position. On June 17,
the interview panel’s recommendation was forwarded
to ODNI’s Chief Management Officer Mark Ewing.
Mr. Ewing recommended that Plaintiff not be hired.
Plaintiff was informed that she was not selected for
the Cyber position on July 7, 2015. Plaintiff completed
her five-year term at ODNI in March 2016.
After having exhausted administrative remedies,
Plaintiff filed this action on August 12, 2016. In Count
I of the operative complaint, 2 Plaintiff alleges that
ODNI violated the Rehabilitation Act of 1973, 29
U.S.C. § 791, et seq., in refusing to hire her for a
permanent position; failing to accommodate her;
creating a hostile work environment; wrongfully
requiring a medical examination; and unlawfully
disclosing confidential medical information. In Count
II, Plaintiff alleges that ODNI interfered with and
The operative complaint is the Second Amended Complaint.
Upon being granted leave from the Court, Plaintiff amended her
original on April 18, 2017. Defendant filed the instant Motion for
Summary Judgment on May 12, 2017. On June 10, 2017, with
authorization from the Court, Plaintiff amended her complaint
for a second time to clarify that her Rehabilitation Act claims
were brought under both Sections 501 and 504 of the
Rehabilitation Act.

2

68a
retaliated against Plaintiff for her use of leave under
the Family and Medical Leave Act (“FMLA”), 39
U.S.C. § 2601, et seq. Following the close of discovery,
Defendant moved for summary judgment on all
counts, and Plaintiff responded by filing an opposition
and cross motion for partial summary judgment.
Under Federal Rule of Civil Procedure 56,
summary judgment is appropriate if the pleadings
and evidence before the Court show no genuine
dispute as to any material fact, and the moving party
is entitled to judgment as a matter of law. Fed. R. Civ.
P. 56(c); see Celotex Corp. v. Catrett, 477 U.S. 317,
322 (1986). In reviewing a motion for summary
judgment, the Court views the facts in the light most
favorable to the non-moving party. See Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 255 (1986). Once a
motion for summary judgment is properly made, the
opposing party has the burden of showing that a
genuine dispute of material fact exists. See
Matsushita Elec. Indus. Co. v. Zenith Radio Corp., 475
U.S. 574, 586–87 (1986).
The Rehabilitation Act prohibits federal agencies
from discriminating against qualified employees
based on a disability, and it provides the exclusive
avenue for remedying such discrimination. See 29
U.S.C. § 791, 794(a). A plaintiff alleging violations of
the Rehabilitation Act may prove her case by using
either direct or circumstantial evidence of
discrimination, or the burden-shifting approach under
the McDonnell Douglas “pretext” framework. See
McDonnell Douglas Corp. v. Green, 411 U.S. 792, 802
(1973); Luther v. Gutierrez, 618 F. Supp. 2d 483, 491–
93 (E.D. Va. 2009) (applying McDonnell Douglas to a
Rehabilitation Act claim).

69a
Under McDonnell Douglas, a plaintiff must first
state a prima facie case of discrimination. See
McDonnell Douglas, 411 U.S. at 802. To state a claim
of disability discrimination, a plaintiff must show
that: (1) she is an individual with a disability within
the statute’s definition; (2) she is qualified for the
position; and (3) she suffered an adverse employment
action that was motivated by her disability status.
Doe v. Univ. of Md. Med. Sys. Corp., 50 F.3d 1261,
1265 (4th Cir. 1995). If the plaintiff succeeds in
stating a prima facie case, the burden of production
shifts to the defendant to articulate a legitimate, nondiscriminatory reason for its adverse employment
decision. Id. If the defendant satisfies this showing,
the plaintiff must show that the articulated reason is
a pretext for discrimination. Id. at 430-31.
In Count I of the complaint, Plaintiff claims that
Defendant violated the Rehabilitation Act’s
prohibition against disability discrimination when
Defendant did not hire Plaintiff for the Cyber position,
when it failed to accommodate Plaintiff’s disability,
when it created a hostile work environment, when it
utilized the Employee Assistance Program as a
“medical examination,” and when it wrongfully used
confidential medical information.
With respect to Defendant’s decision not to hire
Plaintiff for the Cyber position, even if Plaintiff could
establish a prima facie case of discrimination, she
cannot rebut the legitimate, non-discriminatory
reason that ODNI declined to hire Plaintiff for the
position—that Plaintiff had significant attendance
and reporting problems. “It is hardly controversial
that attendance is an essential function of most
employment positions.” Vanyan v. Hagel, 9 F. Supp.

70a
3d 629, 638 (E.D. Va. 2014) (citing Tyndall v. Nat’l
Educ. Ctrs., 31 F.3d 209, 213 (4th Cir. 1994)). The
record reflects that Plaintiff applied for and
interviewed for the Cyber position soon after an
extended period of time in which she had significant
attendance and reporting problems. The evidence also
shows that ODNI’s Chief Management Officer, Mr.
Ewing, was aware of these issues when he decided not
to select Plaintiff for the Cyber position. Mr. Ewing
testified that he declined to hire Plaintiff at that time,
but stated that he would have considered Plaintiff’s
subsequent applications for permanent employment
had Plaintiff demonstrated improved performance for
a longer period of time. Plaintiff cannot establish that
this explanation was a pretext for discrimination.
To the extent Plaintiff’s attendance problems
were caused by her disability, an employer need not
ignore an employee’s problematic conduct, even if that
behavior is potentially tied to a medical condition. See
Vannoy v. Fed. Reserve Bank of Richmond, 827 F.3d
296, 305 (4th Cir. 2016); see also Martinson v. Kinney
Shoe Corp., 104 F.2d 683, 686 n.3 (4th Cir. 1997)
(“Misconduct—even misconduct related to a
disability—is not itself a disability, and an employer
is free to fire an employee on that basis.”).
Thus, even if Plaintiff’s attendance problems
were related to her depression, ODNI was free to not
hire Plaintiff on the basis of her attendance problems.
The Court need not second guess ODNI’s decision not
to hire Plaintiff given that Defendant has presented a
legitimate, non-discriminatory reason for its decision.
See DeJarnette v. Corning Inc., 133 F.3d 293, 298-99
(4th Cir. 1998) (stating that courts do not sit “as a kind
of super-personnel department weighing the prudence

71a
of employment decisions made by [employers] charged
with employment discrimination”). As a result,
Defendant is entitled to summary judgment on
Plaintiff’s discrimination in hiring claim.
Regarding Plaintiff’s claim that ODNI failed to
accommodate her disability, Plaintiff cannot make out
a prima facie case. To establish a failure to
accommodate claim under the Rehabilitation Act,
Plaintiff must show that: (1) she was a qualified
person with a disability; (2) the employer had notice
of the disability; (3) the Plaintiff could perform the
essential functions of the position with a reasonable
accommodation; and (4) the employer refused to make
such an accommodation. Reyazuddin v. Montgomery
Cty., Md., 789 F.3d 407, 414 (4th Cir. 2015) (citing
Wilson v. Dollar Gen. Corp., 717 F.3d 337, 345 (4th
Cir. 2013)).
Plaintiff cannot establish the elements of a prima
facie case because the record reflects that ODNI
provided her with at least two reasonable
accommodations. First, Plaintiff did not request an
accommodation until her supervisors approached her
to address her attendance problems. When Plaintiff
disclosed to her supervisors that she had depression,
her supervisors proposed a plan that required that
Plaintiff arrive at work by 10 a.m. If she had not
arrived to work by that time, Plaintiff’s supervisor
would call her at 11 a.m. to determine her arrival
time.
Although Plaintiff claims that
this
accommodation appeared to be working and that it
was Defendant who abandoned the plan, the record
shows that Plaintiff failed to adequately communicate
with her supervisors during the first few weeks of the
plan’s execution. Furthermore, Plaintiff was

72a
ultimately provided an accommodation that Plaintiff
admits was effective—four weeks of leave in May
2015. Plaintiff cannot prove that ODNI refused to
provide her an accommodation. As a result, Defendant
is entitled to summary judgment on Plaintiff’s failure
to accommodate claim.
With respect to Plaintiff’s hostile work
environment claim, Plaintiff must establish that she:
(1) is a qualified individual with a disability; (2) was
subject to unwelcome harassment; (3) the harassment
was based on her disability; (4) the harassment was
sufficiently severe or pervasive to alter a term,
condition, or privilege of employment; and (5) there is
some factual basis for imputing liability to the
employer. Edmonson v. Potter, 118 F. App’x 726, 730
(4th Cir. 2004) (citing Fox v. GMC, 247 F.3d 169, 177
(4th Cir. 2001)). Plaintiff must demonstrate that her
employer’s conduct was objectively hostile, such that
a reasonable person would so perceive it as such. Id.
The Court finds no evidence here that could
support a finding that Plaintiff was harassed, that
any alleged harassment that Plaintiff suffered was
based on her disability, or that any harassment was
severe or pervasive such that it created an abusive
work environment. The record does not reflect that
Plaintiff was subject to any threatening or
intimidating treatment, offensive language, or insult
based on her disability. On the contrary, the evidence
shows that Plaintiff’s supervisors were willing to help
Plaintiff when she experienced acute bouts of
depression and that they were open to finding an
accommodation that would help Plaintiff. As a result,
Defendant is entitled to summary judgment on
Plaintiff’s hostile work environment claim.

73a
Plaintiff also alleges that Defendant violated the
Rehabilitation Act by using the EAP referral process
as a medical examination. An employer shall not
require a medical examination “unless such
examination or inquiry is shown to be job-related and
consistent with business necessity.” 42 U.S.C.
§ 12112(d)(4)(A). However, Plaintiff’s EAP counseling
sessions were not medical examinations. The EAP
counselor with whom Plaintiff met testified that she
was not a medical doctor or a nurse, and that Plaintiff
was not subjected to a mental health evaluation or a
diagnostic assessment. The counselor also testified
that she did not ask Plaintiff about family medical
history or genetic information. Thus, Plaintiff cannot
prove a wrongful medical examination claim, and
Defendant is entitled to summary judgment on this
claim.
Finally, Plaintiff alleges that ODNI unlawfully
disclosed her confidential medical information when
Plaintiff’s supervisors informed the EAP counselor
that Plaintiff had been meeting with a psychiatrist
and was taking medication for depression. An
employer is prohibited from making medical inquiries
from an employee and disclosing an employee’s
medical information, but if the employee voluntarily
discloses her medical condition to her employer, the
employer is not obligated to keep that information
confidential. See Reynolds v. Am. Nat’l Red Cross, 701
F.3d 143, 155 (4th Cir. 2012).
In this case, the record reflects that Plaintiff
voluntary disclosed to her supervisors that she had
been diagnosed with depression and was taking
medication. Plaintiff did not disclose this information
in response to a medical inquiry from her employer;

74a
rather, she did so voluntarily. As a result, this
information was not subject to protection.
Furthermore, Plaintiff has not shown that ODNI
disclosed any medical information outside of the
group of people who were working with Plaintiff to
find a reasonable accommodation. Thus, Defendant is
entitled to summary judgment on Plaintiff’s
confidentiality claim.
In Count II of the complaint, Plaintiff claims that
ODNI violated her rights under the FMLA. The
FMLA provides eligible employees the right to take up
to 12 weeks of leave during any 12-month period for a
qualifying medical reason. 29 U.S.C. § 2612(a).
Plaintiff claims that Defendant interfered with her
rights under the FMLA and then did not hire her for
the Cyber position in retaliation for Plaintiff taking
FMLA-qualifying leave. Even assuming that Plaintiff
was entitled to FMLA leave in the first place, the
evidence does not show that ODNI interfered with
Plaintiff’s FMLA rights or retaliated against her.
First, Plaintiff did not request FMLA leave or put
her supervisors on notice that her leave would be for
an FMLA-qualifying reason. When an employee
requests FMLA leave, or when the employer knows
that an employee’s leave may be for a FMLAqualifying reason, the employer must notify the
employee that she is eligible to take FMLA leave
within five business days. 29 C.F.R. § 825.300(b)(1).
However, Plaintiff has not presented evidence that
she ever requested FMLA leave or provided any
medical documentation to support a request for FMLA
leave. Instead, she asked for, and received,
approximately four weeks of annual leave, using sick
leave for one day of each week.

75a
Furthermore, Plaintiff’s supervisors could not
have been on notice that Plaintiff was requesting
leave for an FMLA-qualifying reason. The FMLA
entitles an employee to leave for a “serious health
condition that makes the employee unable to perform
[her job functions.]” 29 U.S.C. § 2612(a)(1)(D). The
record
reflects
that
Plaintiff’s
psychiatrist
recommended that she take time off to cope with
burnout, and that Plaintiff told her supervisor she
could come to work if something important came up.
This information was not sufficient for her
supervisors to know that Plaintiff’s leave was for an
FMLA-qualifying reason. Thus, Plaintiff’s supervisors
were not required to notify Plaintiff of her right to
take FMLA leave. Moreover, Plaintiff was not
prejudiced by the lack of notice. Instead, she was
granted her request—four weeks of leave. As a result,
Plaintiff cannot prove that ODNI interfered with her
right to take FMLA leave.
Plaintiff also claims that ODNI did not select her
for the Cyber position in retaliation for her taking
FMLA leave. To establish a prima facie case of
retaliation, Plaintiff must prove that: (1) she engaged
in a protected activity; (2) her employer took an
adverse employment action against her; and (3) there
was a causal link between the two events. Adams v.
Anne Arundel Cty. Pub. Sch., 789 F.3d 422, 429 (4th
Cir. 2015). If Plaintiff makes this prima facie showing,
the burden shifts to ODNI to articulate a legitimate,
non-retaliatory explanation for its decision to not hire
Plaintiff for the Cyber position. See id. If ODNI meets
its burden, the burden shifts back to Plaintiff to
establish that ODNI’s explanation is a pretext for
retaliation. See id.

76a
As with Plaintiff’s discrimination in hiring claim,
even if Plaintiff could make a prima facie case, she
cannot establish that ODNI’s explanation for not
hiring her was pretextual. As explained above,
Plaintiff applied for the Cyber position shortly after a
period of time in which she demonstrated attendance
and reporting problems. Mr. Ewing, who ultimately
decided not to hire Plaintiff, was aware of these issues
with Plaintiff’s performance. Plaintiff has not
established that Mr. Ewing’s decision not to select her
was motivated by any retaliatory animus. Because
Plaintiff cannot establish that Mr. Ewing’s
explanation was a pretext for retaliation, Plaintiff’s
FMLA retaliation claim fails as well.
For the aforementioned reasons, this Court finds
that summary judgment should be granted in favor of
the Defendant on Counts I and II. An appropriate
order shall issue.
/s/ CLAUDE M. HILTON
CLAUDE M. HILTON
UNITED STATES DISTRICT JUDGE
Alexandria, Virginia
July 27, 2017

77a

APPENDIX C

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Alexandria Division
HANNAH P.,
Plaintiff,
v.
DANIEL COATS,
Director of the Office of
The Director of
National Intelligence,
Defendant.

)
)
)
)
)
)
)
)
)
)
)
)

Civil Action No. 1-16cv-1030

ORDER

In
accordance
with
the
Memorandum Opinion, it is hereby

accompanying

ORDERED that Defendant Daniel Coats’s
Motion for Summary Judgment is GRANTED,
ORDERED that Plaintiff Hannah P.’s Cross
Motion for Summary Judgment is DENIED, and this
case is DISMISSED.

78a
/s/ CLAUDE M. HILTON
CLAUDE M. HILTON
UNITED STATES DISTRICT JUDGE
Alexandria, Virginia
July 27, 2017

79a

APPENDIX D

FILED: June 25, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 17-1943
(1:16-cv-01030-CMH-IDD)
HANNAH P.,
Plaintiff - Appellant,
v.
DANIEL COATS, Director of the Office of The
Director of National Intelligence
McLean, VA,
Defendant - Appellee,
and
MARK EWING, in his personal capacity McLean,
VA,
Defendant.
ORDER

80a
The Court denies the petition for rehearing en
banc.
A requested poll of the Court failed to produce a
majority of judges in regular active service and not
disqualified who voted in favor of rehearing en banc.
Chief Judge Gregory and Judge King voted to grant
rehearing en banc. Judges Wilkinson, Niemeyer,
Motz, Agee, Keenan, Wynn, Diaz, Floyd, Thacker,
Harris, Richardson, Quattlebaum, and Rushing voted
to deny rehearing en banc.
Entered at the direction of Judge Thacker.
For the Court
/s/ Patricia S. Connor, Clerk

81a

APPENDIX E
THE REHABILITATION ACT OF 1973,
29 U.S.C. § 701 ET SEQ.
§ 794. Nondiscrimination under Federal grants and
programs
(a)

Promulgation of rules and regulations

No otherwise qualified individual with a disability
in the United States, as defined in section 705(20) of
this title, shall, solely by reason of her or his disability,
be excluded from the participation in, be denied the
benefits of, or be subjected to discrimination under
any program or activity receiving Federal financial
assistance or under any program or activity conducted
by any Executive agency or by the United States
Postal Service. The head of each such agency shall
promulgate such regulations as may be necessary to
carry out the amendments to this section made by the
Rehabilitation,
Comprehensive
Services,
and
Developmental Disabilities Act of 1978. Copies of any
proposed regulation shall be submitted to appropriate
authorizing committees of the Congress, and such
regulation may take effect no earlier than the
thirtieth day after the date on which such regulation
is so submitted to such committees.
* * * * *
(d)

Standards used in determining violation of
section

The standards used to determine whether this
section has been violated in a complaint alleging

82a
employment discrimination under this section shall
be the standards applied under title I of the
Americans with Disabilities Act of 1990 (42 U.S.C.
12111 et seq.) and the provisions of sections 501
through 504, and 510, of the Americans with
Disabilities Act of 1990 (42 U.S.C. 12201 to 12204 and
12210), as such sections relate to employment.
THE AMERICANS WITH DISABILITIES ACT,
42 U.S.C. § 12101 ET SEQ.
§ 12111. Definitions

As used in this subchapter:
* * * * *
(3)

Direct threat

The term “direct threat” means a significant risk
to the health or safety of others that cannot be
eliminated by reasonable accommodation.
* * * * *
(8)

Qualified individual

The term “qualified individual” means an
individual who, with or without reasonable
accommodation, can perform the essential functions of
the employment position that such individual holds or
desires. For the purposes of this subchapter,
consideration shall be given to the employer's
judgment as to what functions of a job are essential,
and if an employer has prepared a written description
before advertising or interviewing applicants for the
job, this description shall be considered evidence of
the essential functions of the job.

83a
(9)

Reasonable accommodation

The term
include—

“reasonable

accommodation”

may

(A) making existing facilities used by
employees readily accessible to and usable by
individuals with disabilities; and
(B) job restructuring, part-time or modified
work schedules, reassignment to a vacant position,
acquisition or modification of equipment or
devices, appropriate adjustment or modifications
of examinations, training materials or policies, the
provision of qualified readers or interpreters, and
other similar accommodations for individuals with
disabilities.
(10) Undue hardship

(A) In general
The term “undue hardship” means an action
requiring significant difficulty or expense, when
considered in light of the factors set forth in
subparagraph (B).
(B) Factors to be considered
In determining whether an accommodation
would impose an undue hardship on a covered
entity, factors to be considered include—
(i) the nature and cost of the accommodation
needed under this chapter;
(ii) the overall financial resources of the
facility or facilities involved in the provision of
the reasonable accommodation; the number of
persons employed at such facility; the effect on
expenses and resources, or the impact

84a
otherwise of such accommodation upon the
operation of the facility;
(iii) the overall financial resources of the
covered entity; the overall size of the business
of a covered entity with respect to the number
of its employees; the number, type, and location
of its facilities; and
(iv) the type of operation or operations of the
covered entity, including the composition,
structure, and functions of the workforce of
such entity; the geographic separateness,
administrative, or fiscal relationship of the
facility or facilities in question to the covered
entity.
§ 12112. Discrimination
(a)

General rule

No covered entity shall discriminate against a
qualified individual on the basis of disability in regard
to job application procedures, the hiring,
advancement, or discharge of employees, employee
compensation, job training, and other terms,
conditions, and privileges of employment.
(b)

Construction

As used in subsection (a), the term “discriminate
against a qualified individual on the basis of
disability” includes—
(1) limiting, segregating, or classifying a job
applicant or employee in a way that adversely
affects the opportunities or status of such
applicant or employee because of the disability of
such applicant or employee;

85a
(2) participating in a contractual or other
arrangement or relationship that has the effect of
subjecting a covered entity's qualified applicant or
employee with a disability to the discrimination
prohibited by this subchapter (such relationship
includes a relationship with an employment or
referral agency, labor union, an organization
providing fringe benefits to an employee of the
covered entity, or an organization providing
training and apprenticeship programs);
(3) utilizing standards, criteria, or methods of
administration—
(A) that have the effect of discrimination on
the basis of disability; or
(B) that perpetuate the discrimination of
others who are subject to common
administrative control;
(4) excluding or otherwise denying equal jobs or
benefits to a qualified individual because of the
known disability of an individual with whom the
qualified individual is known to have a
relationship or association;
(5)(A) not making reasonable accommodations
to the known physical or mental limitations of an
otherwise qualified individual with a disability
who is an applicant or employee, unless such
covered entity can demonstrate that the
accommodation would impose an undue hardship
on the operation of the business of such covered
entity; or
(B) denying employment opportunities to a job
applicant or employee who is an otherwise
qualified individual with a disability, if such denial

86a
is based on the need of such covered entity to make
reasonable accommodation to the physical or
mental impairments of the employee or applicant;
(6) using qualification standards, employment
tests or other selection criteria that screen out or
tend to screen out an individual with a disability
or a class of individuals with disabilities unless the
standard, test or other selection criteria, as used
by the covered entity, is shown to be job-related for
the position in question and is consistent with
business necessity; and
(7) failing to select and administer tests
concerning employment in the most effective
manner to ensure that, when such test is
administered to a job applicant or employee who
has a disability that impairs sensory, manual, or
speaking skills, such test results accurately reflect
the skills, aptitude, or whatever other factor of
such applicant or employee that such test purports
to measure, rather than reflecting the impaired
sensory, manual, or speaking skills of such
employee or applicant (except where such skills
are the factors that the test purports to measure).
* * * * *
§ 12113. Defenses
(a)

In general

It may be a defense to a charge of discrimination
under this chapter that an alleged application of
qualification standards, tests, or selection criteria
that screen out or tend to screen out or otherwise deny
a job or benefit to an individual with a disability has
been shown to be job-related and consistent with

87a
business necessity, and such performance cannot be
accomplished by reasonable accommodation, as
required under this subchapter.
(b)

Qualification standards

The term “qualification standards” may include a
requirement that an individual shall not pose a direct
threat to the health or safety of other individuals in
the workplace.
* * * * *
§ 12114. Illegal use of drugs and alcohol
(a)

Qualified individual with a disability

For purposes of this subchapter, a qualified
individual with a disability shall not include any
employee or applicant who is currently engaging in
the illegal use of drugs, when the covered entity acts
on the basis of such use.
(b)

Rules of construction

Nothing in subsection (a) shall be construed to
exclude as a qualified individual with a disability an
individual who—
(1) has successfully completed a supervised
drug rehabilitation program and is no longer
engaging in the illegal use of drugs, or has
otherwise been rehabilitated successfully and is no
longer engaging in such use;
(2) is participating in a supervised
rehabilitation program and is no longer engaging
in such use; or
(3) is erroneously regarded as engaging in such
use, but is not engaging in such use;

88a
except that it shall not be a violation of this chapter
for a covered entity to adopt or administer reasonable
policies or procedures, including but not limited to
drug testing, designed to ensure that an individual
described in paragraph (1) or (2) is no longer engaging
in the illegal use of drugs.
(c)

Authority of covered entity

A covered entity—
(1) may prohibit the illegal use of drugs and the
use of alcohol at the workplace by all employees;
(2) may require that employees shall not be
under the influence of alcohol or be engaging in the
illegal use of drugs at the workplace;
(3) may require that employees behave in
conformance with the requirements established
under chapter 81 of Title 41;
(4) may hold an employee who engages in the
illegal use of drugs or who is an alcoholic to the
same qualification standards for employment or
job performance and behavior that such entity
holds other employees, even if any unsatisfactory
performance or behavior is related to the drug use
or alcoholism of such employee; and
(5) may, with respect to Federal regulations
regarding alcohol and the illegal use of drugs,
require that—
(A) employees comply with the standards
established in such regulations of the
Department of Defense, if the employees of the
covered entity are employed in an industry
subject to such regulations, including
complying with regulations (if any) that apply

89a
to employment in sensitive positions in such an
industry, in the case of employees of the
covered entity who are employed in such
positions (as defined in the regulations of the
Department of Defense);
(B) employees comply with the standards
established in such regulations of the Nuclear
Regulatory Commission, if the employees of the
covered entity are employed in an industry
subject to such regulations, including
complying with regulations (if any) that apply
to employment in sensitive positions in such an
industry, in the case of employees of the
covered entity who are employed in such
positions (as defined in the regulations of the
Nuclear Regulatory Commission); and
(C) employees comply with the standards
established in such regulations of the
Department of Transportation, if the
employees of the covered entity are employed in
a transportation industry subject to such
regulations, including complying with such
regulations (if any) that apply to employment
in sensitive positions in such an industry, in the
case of employees of the covered entity who are
employed in such positions (as defined in the
regulations
of
the
Department
of
Transportation).
(d)

Drug testing

(1) In general
For purposes of this subchapter, a test to
determine the illegal use of drugs shall not be
considered a medical examination.

90a
(2) Construction
Nothing in this subchapter shall be construed
to encourage, prohibit, or authorize the conducting
of drug testing for the illegal use of drugs by job
applicants or employees or making employment
decisions based on such test results.
(e)

Transportation employees

Nothing in this subchapter shall be construed to
encourage, prohibit, restrict, or authorize the
otherwise lawful exercise by entities subject to the
jurisdiction of the Department of Transportation of
authority to—
(1) test employees of such entities in, and
applicants for, positions involving safety-sensitive
duties for the illegal use of drugs and for on-duty
impairment by alcohol; and
(2) remove such persons who test positive for
illegal use of drugs and on-duty impairment by
alcohol pursuant to paragraph (1) from safetysensitive duties in implementing subsection (c).

